Audit Report No. D-2011-015   November 2, 2010




    Insufficient Governance Over Logistics
  Modernization Program System Development
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                           Army Materiel Command
ASA(FM&C)                     Assistant Secretary of the Army (Financial Management
                                and Comptroller)
AWCF                          Army Working Capital Fund
BTA                           Business Transformation Agency
DCMO                          Deputy Chief Management Officer
DDRS                          Defense Departmental Reporting System
DFAS                          Defense Finance and Accounting Service
DOD FMR                       DOD Financial Management Regulation
ERP                           Enterprise Resource Planning
FFMIA                         Federal Financial Management Improvement Act of 1996
FSIO                          Financial Systems Integration Office
GLAC                          General Ledger Account Code
IRB                           Investment Review Board
LMP                           Logistics Modernization Program
OMB                           Office of Management and Budget
OUSD(C)                       Office of the Under Secretary of Defense (Comptroller)
PO                            Project Office
SFIS                          Standard Financial Information Structure
USAAA                         U.S. Army Audit Agency
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer
USSGL                         U.S. Government Standard General Ledger
                                 INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DR IVE 

                             ARLINGTON , VIRGINIA 22202-4704 




                                                                          November 2, 20 I 0

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, BUSINESS TRANSFORMATION AGENCY
               DIRECTOR, COST ASSESSMENT AND PROGRAM
                 EVALUATION
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Insufficient Governance Over Logistics Modernization Program System
          Development (Report No. 0-2011-015)

We are providing this report for review and comment. The Army has reported to
Congress that the Logistics Modernization Program system would be the Army Working
Capita l Fund's system so luti on for obta ining auditable financial statements. However,
after more than 10 years in development, costing $1 .1 billion, the Army has failed to
deliver a system that is U.S. Government Standard General Ledger compliant. We
considered management comments on a draft of the report in preparing the final report.

000 Directive 7650.3 requires that all recommendations be resolved promptly. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer and Deputy Ch ief
Management Officer comments were genera ll y responsive. However, they did not agree
to delay furt her deployment of the Logistics Modernization Program system or request an
analysis of alternatives to determine whether the program continuation was cost
beneficial. The Assistant Secretary of the Army (Financial Management and
Comptroll er) comments were responsive. We did not receive comments from the
Director of Cost Assessment and Program Eva lu ation on Recommendation 2.
Therefore, we request additional comments from the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and Deputy Chief Management Officer on
Recommendations I.b, I.c, and 3.a, and from the Director of Cost Assessment and
Program Evaluation on Recommendation 2 by January 2, 20 II.

If possible, send a .pdf file containing your comments to auddbo@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for you r
organization. We are unable to accept the IS ignedl symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. P"'''-li. direct questions to Ms. Patricia
A. Marsh at (703) 601-5868 (DSN 329-5868).
Report No. D-2011-015 (Project No. D2009-D000FI-0139.000)         November 2, 2010


              Results in Brief: Insufficient Governance
              Over Logistics Modernization Program
              System Development
                                                      Budget to select LMP as a high-risk system for
What We Did                                           review. We also recommend that they delay
We determined whether the Logistics                   further LMP deployment until, at the minimum,
Modernization Program system (LMP) was                the Army demonstrates that funding is available
compliant with the U.S. Government Standard           and it has an approved plan in place to comply
General Ledger (USSGL) at the transaction             with the Standard Financial Information
level (USSGL compliant).                              Structure requirements. They should also
                                                      update guidance for specific general ledger
                                                      accounts and transaction codes and validate
What We Found                                         compliance with these requirements.
The Army reported to Congress that LMP
would be the Army Working Capital Fund’s              The Assistant Secretary of the Army (Financial
(AWCF) system solution for obtaining auditable        Management and Comptroller) should assume
financial statements. However, after more than        operational control over developing, approving,
10 years in development, costing $1.1 billion,        and implementing LMP financial requirements.
the Army has failed to deliver a system that is
USSGL compliant.                                      Management Comments and
Army and DOD financial communities did not            Our Response
establish the appropriate senior-level                The Under Secretary of Defense
governance needed to develop, test, and               (Comptroller)/Chief Financial Officer and
implement the LMP financial management                Deputy Chief Management Officer generally
requirements and processes needed to record           agreed to the recommendations. However, they
AWCF financial data at the transaction level.         did not agree to delay LMP deployment or
As a result, LMP was not substantially                request an analysis of alternatives to determine
compliant with the Federal Financial                  cost effectiveness. The Assistant Secretary of
Management Improvement Act of 1996. The               the Army (Financial Management and
system also did not resolve any of the AWCF’s         Comptroller) agreed to implement our
internal control weaknesses. Therefore, the           recommendations. The Director of Cost
Army will need to spend additional funds to           Assessment and Program Evaluation did not
comply with USSGL requirements and achieve            provide comments. We request that DOD
an unqualified audit opinion on its AWCF              management reconsider its position on
financial statements.                                 proceeding with a cost benefit analysis,
                                                      coordinating with the DOD Efficiencies Task
What We Recommend                                     Force and ensuring LMP compliance with
                                                      Standard Financial Information Structure
The Under Secretary of Defense (Comptroller)/
                                                      requirements. DOD managers should provide
Chief Financial Officer and Deputy Chief
                                                      additional comments to the final report as
Management Officer should advise the Deputy
                                                      specified in the recommendations table on the
Secretary of Defense and Deputy Director for
                                                      back of this page.
Management at the Office of Management and

                                                  i
Report No. D-2011-015 (Project No. D2009-D000FI-0139.000)        November 2, 2010


Recommendations Table
              Management                     Recommendations           No Additional Comments
                                             Requiring Comment         Required
Under Secretary of Defense                   1.b, 3.a                  1.a, 1.c, 3.b, 3.c
(Comptroller)/Chief Financial Officer
Deputy Chief Management Officer              1.b, 1.c, 3.a             1.a, 3.b, 3.c
Director of Cost Assessment and Program      2
Evaluation
Assistant Secretary of the Army (Financial                             4.a, 4.b, 4.c, 4.d.(1),
Management and Comptroller)                                            4.d.(2)

Please provide comments by January 2, 2011.




                                             ii
Table of Contents

Introduction	                                                                   1


      Objective                                                                  1

      Background                                                                 1

      Review of Internal Controls                                                3


Finding. Developing and Maintaining the Logistics Modernization Program

         System General Ledger                                                   4


      Assessing USSGL Compliance                                                 5

      LMP Development Process Was Ineffective                                   12 

      LMP Has Not Achieved FFMIA Compliance                                     15 

      Recommendations, Management Comments, and Our Response                    21


Appendices

      A. Scope and Methodology	                                                 27 

      B. Prior Coverage	                                                        29 

      C. 	Logistics Modernization Program System Deployment Schedule and 

           Schedule of FFMIA Guidance Issued                                    30 

      D. Regulatory and Policy Guidance	                                        32 

      E. Standard Financial Information Structure	                              36 

      F. 	Additional U.S. Government Standard General Ledger Accounts Needed

           in the Logistics Modernization Program System                        43 

      G. Effects of Incorrectly Implementing Attributes	                        45 


Glossary 	                                                                      47 


Management Comments

      Joint Under Secretary of Defense (Comptroller) and Deputy Chief

      Management Officer                                                        49 

      Department of the Army                                                    53 

Introduction
Objectives
Our overall objective was to determine whether internal controls over Army Working
Capital Fund (AWCF) accounting transactions originating in the Logistics Modernization
Program system (LMP) were adequate. Specifically, we planned to determine whether
LMP properly supported accounting transactions with verifiable audit trails and recorded
transactions as required by the U.S. Government Standard General Ledger (USSGL).
Additionally, we planned to determine the reasons for any abnormal balances reported in
the general ledger account codes (GLAC). However, based on the LMP general ledger
problems we initially identified, we limited the scope of this phase of the audit to
determining whether LMP was compliant with the USSGL at the transaction level
(USSGL compliant).

See Appendix A for a discussion of our scope and methodology and Appendix B for prior
audit coverage. See the Glossary for the definition of technical terms used in this report.

Background
The Army has experienced long-standing financial reporting problems in its AWCF
business areas (Supply Management and Industrial Operations). The Army did not
design its legacy accounting systems to collect and record financial information using the
accrual accounting method or to maintain auditable data at the transaction level to
support the amounts reported on the AWCF financial statements. The legacy systems
also did not have the capability to populate the required GLACs using transactional data
provided by other DOD mixed systems supporting AWCF-related business events. As a
result, AWCF and Defense Finance and Accounting Service (DFAS) personnel used
manual data calls and journal vouchers to produce a significant portion of the amounts
reported in the AWCF financial statements. In the FY 2010 AWCF Financial Statement
engagement letter, the Army acknowledged 10 material weaknesses related to its AWCF
business processes and systems.

Logistics Modernization Program System
In an attempt to standardize and develop an effective financial management process
throughout the Department, DOD embarked on various efforts to implement new
financial management systems and associated business processes. These efforts involved
implementing new commercial off-the-shelf Enterprise Resource Planning (ERP) systems
that were capable of handling financial transactions throughout an event’s life cycle.
These ERP systems would provide the integration needed to minimize system interface
problems and provide greater DOD financial visibility. The Assistant Secretary of the
Army (Financial Management and Comptroller) (ASA[FM&C]) identified LMP as the
AWCF’s target system for resolving its long-standing financial reporting problems.



                                            1

In December 1999, the Program Director, U. S. Army Wholesale LMP, Army Materiel
Command (AMC), initiated a service contract that would provide logistical and financial
data to support the AWCF business areas and maintain the legacy systems until LMP
could be fully deployed. Under the contract terms, the LMP contractor provides the
Army with the system functionality as a service and maintains proprietary control over
the actual system while the Army maintains control over its data. LMP uses SAP ERP
software that provides funds management, weapon system life cycle management, and
material supply and service management capabilities. The Army developed LMP to
modernize Army logistics business practices and meet future military readiness
requirements. The DOD Investment Review Boards (IRBs) are responsible for ensuring
that DOD systems comply with the DOD Business Enterprise Architecture. DOD
assigned the Material Supply and Services Management IRB oversight responsibilities
for LMP because the system performs primarily logistical functions.

LMP became operational in July 2003 as the AWCF target general ledger accounting
system (target system) when the LMP Project Office (PO) deployed the system to the
CECOM Life Cycle Management Command, New Jersey; Tobyhanna Army Depot,
Pennsylvania; DFAS locations; and several other AMC activities supporting the AWCF
Supply Management business area. For the second deployment, in May 2009, the
LMP PO fielded the system to the Aviation and Missile Life Cycle Management
Command, Alabama; Corpus Christi Army Depot, Texas; and Letterkenny Army Depot,
Pennsylvania. The Army completed the third and final system deployment on
October 21, 2010 at TACOM Life Cycle Management Command activities in Illinois and
Michigan and all remaining AWCF Supply Management and Industrial Operations
activities. 1 LMP supports more than 17,000 users worldwide. The LMP PO informed us
that AMC spent $1.1 billion on LMP from FY 2000 through FY 2009.

See Appendix C for the LMP deployment schedule and a timeline of key events that
affected the LMP financial system development discussed in this report.

Federal Financial Management Improvement Act
Requirements
Public Law 104-208, “Omnibus Consolidated Appropriations Act, 1997,” September 30,
1996, Title VIII, “Federal Financial Management Improvement Act of 1996” (FFMIA),
advanced Federal financial management by requiring that Federal agencies implement
financial management systems that are capable of routinely providing reliable financial
information across the Federal Government and applying uniform accounting standards.
FFMIA, Section 803, requires:
    • agencies to implement and maintain financial management systems that comply
    substantially with (1) Federal financial management system requirements,
    (2) applicable Federal accounting standards, and (3) the USSGL at the transaction
    level (Section 803[a]);

1
 During the audit period, the Army had not accomplished the final deployment. The Army decision to
accomplish the final deployment occurred on September 21, 2010, after the issuance of the draft report.

                                                    2

   • auditors to report on agency compliance with the three stated requirements as part
   of financial statement audit reports (Section 803[b]); and
   • agency heads to determine annually, based on audit reports and other information,
   whether their financial management systems comply with FFMIA. If the financial
   management systems do not substantially comply, agencies in consultation with the
   Director, Office of Management and Budget (OMB) are required to develop
   remediation plans and submit them to the OMB (Section 803[c]).
The OMB, Department of Treasury, and DOD have issued regulatory and policy
guidance to assist DOD activities in achieving compliance with the FFMIA.

Appendix D provides details related to the guidance issued that impact the LMP system’s
compliance with FFMIA. A key DOD policy to assist with FFMIA compliance was the
development of the Standard Financial Information Structure (SFIS).

Appendix E provides details about how implementing SFIS requirements, including the
USSGL SFIS Transaction Library (hereafter referred to as SFIS Transaction Library) and
the DOD Standard Chart of Accounts, would result in target systems being USSGL
compliant.

Review of Internal Controls
We determined that an internal control weakness as defined by DOD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” July 29, 2010, existed in
implementing LMP. Senior DOD and Army financial managers did not define roles and
responsibilities or implement policy and the proper oversight needed to ensure that they
developed and maintained an LMP system chart of accounts that is USSGL compliant.
Implementing Recommendation 4 will assist the Army in developing the internal control
structure needed to provide proper oversight of the final development and deployment of
LMP and ensure future compliance with changes in the USSGL. We will provide a copy
of the report to the senior official responsible for internal controls in DOD and the
Department of the Army.




                                           3

Finding. Developing and Maintaining the
Logistics Modernization Program System
General Ledger
The Army developed and deployed LMP to AWCF activities without ensuring that the
system was USSGL compliant. Specifically, LMP did not:
    •	 contain all the necessary GLACs,
    •	 record attribute values correctly,
    •	 report trial balance data directly to the Defense Departmental Reporting System
       (DDRS), or
    •	 have the capability to demonstrate that the LMP transaction library complied with
       USSGL posting logic.
This occurred because the Army and DOD financial communities 2 did not establish the
appropriate senior-level governance over developing testing, and implementing LMP
financial management requirements and processes. As a result, LMP was not
substantially compliant with the FFMIA despite costing the Army $1.1 billion. The
system also does not resolve the AWCF’s long-standing material internal control
weaknesses. Therefore, the Army will need to spend additional funds to develop and
implement the LMP functionality needed to achieve USSGL compliance and correct the
known financial reporting deficiencies preventing the AWCF from achieving an
unqualified audit opinion.

FFMIA Compliance
To comply with the FFMIA requirement to post financial events at the transaction level,
Supplement No. S2 to the Treasury Financial Manual, volume 1 (the Supplement),
requires financial management systems to post transactions using the appropriate USSGL
4-position GLACs and all applicable attribute domain values. DOD Financial
Management Regulation (DOD FMR), volume 1, “General Financial Management
Information, Systems, and Requirements,” chapter 7, “United States Standard General
Ledger,” directs that all DOD target systems post DOD transactions to the appropriate
GLACs and attributes using the Supplement, Section III, posting logic contained in the
SFIS Transaction Library. Beginning in FY 2010, DOD FMR, volume 1, chapter 3,
“Federal Financial Management Improvement Act of 1996 Compliance, Evaluation, and
Reporting,” requires DOD reporting entities to report annually the results of their
evaluation of FFMIA compliance in the Annual Statement of Assurance.
The Deputy Chief Management Officer (DCMO) is the senior official responsible for
assisting the Secretary of Defense and the Deputy Secretary of Defense in effectively and
efficiently organizing DOD business operations. The DCMO supervises and oversees
Business Transformation Agency (BTA) and the DOD Performance Improvement


2
 The DOD financial communities discussed in this report include the Offices of Under Secretary of
Defense (Comptroller), DCMO, BTA, and DFAS.

                                                   4

Officer. The Under Secretary of Defense (Comptroller/Chief Financial Officer
(USD(C)/CFO) has overall responsibility for DOD financial management systems and for
issuing and monitoring DOD’s FFMIA compliance policy, while the BTA has
responsibility for updating the DOD Business Enterprise Architecture with the FFMIA
requirements. The BTA also plays a major role in approving future system deployments
through its involvement in the IRB review and approval process.
To help it satisfy its responsibility for developing DOD financial management system
requirements and systems integration strategies, DFAS issued DFAS Manual 7900.4G,
“A Guide to Federal Requirements for Financial Management Systems” (DFAS Blue
Book). The DFAS Blue Book contains the financial management system requirements to
achieve FFMIA compliance. 3 The ASA(FM&C) has primary responsibility for ensuring
that the Army developed its ERP systems correctly The LMP Program Manager is
responsible for developing and deploying LMP and ensuring that it complied with the
DOD Business Enterprise Architecture requirements. In March 2006, the Army aligned
the LMP Program under the Army Program Executive Office, Enterprise Information
Systems. AMC is responsible for managing LMP’s deployment to AWCF activities and
tracking LMP requirements, including compliance with the USSGL and SFIS
requirements, because AMC designed LMP primarily to fulfill the AWCF activities’
logistical functions.

Assessing USSGL Compliance
The Army developed LMP and substantially deployed it to AWCF activities without
ensuring that it was USSGL compliant. The August 2009 LMP general ledger did not:
        •	 contain all the USSGL accounts required to support AWCF financial
           reporting,
        •	 populate USSGL-required attributes at the transaction level, or
        •	 generate a trial balance that could directly populate the DOD Standard Chart
           of Accounts.
In addition, the system did not have the capability to readily produce reports to
demonstrate that LMP transaction codes met the posting logic required by the USSGL
and SFIS Transaction Library. Army and DFAS personnel responsible for developing
the LMP financial management requirements could not provide documentation showing
how the Army developed LMP’s functionality to achieve USSGL compliance.




3
 From January 1998 through February 2010, DFAS issued 13 versions of the DFAS Blue Book. The
current 8.0 version is dated February 2010 and was renamed DFAS 7900.4-M, “Financial Management
Systems Requirements Manual.”

                                                5

LMP Does Not Contain the Chart of Accounts Needed to Support
the AWCF Financial Statements
LMP did not contain all the GLACs necessary to record AWCF financial transactions
because financial management personnel in the Office of the Under Secretary of Defense
(Comptroller) (OUSD[C]) and Office of the ASA(FM&C) did not play a major role in
establishing the LMP chart of accounts. Instead, they permitted AMC, LMP PO, and
DFAS personnel to develop the LMP chart of accounts based on the GLAC structure and
                                 business processes in the legacy systems without
  As a target system, LMP        ensuring LMP included the additional GLACs required to
  should include all the
                                 be USSGL compliant. As a target system, LMP should
  GLACs necessary to             include all the GLACs necessary to record AWCF
  record AWCF financial          financial transactions. The system should include those
  transactions.                  originating from DOD mixed systems, and maintain
subsidiary information and a comprehensive chart of accounts to process all AWCF
financial transactions through a single general ledger system. This would alleviate the
need for DFAS to record values using department-level journal vouchers and other
manual processes.

Financial Managers Did Not Select the Appropriate USSGL
Accounts
We compared the LMP chart of accounts, as of August 19, 2009, with the FY 2009
USSGL chart of accounts to determine whether LMP contained all the accounts
necessary to record AWCF business operations accurately. The USSGL contained
433 GLACs. However, LMP’s general ledger only contained 132 GLACs applicable to
the AWCF. Together with the OUSD(C), we determined that Defense Working Capital
Fund general ledgers should have included at least 174 of the 433 GLACs. 4 Appendix F
identifies the 42 GLACs missing from LMP. Without the 42 missing GLACs, LMP
cannot record all AWCF business transactions correctly and will continue to report
AWCF financial data inaccurately. For example, the LMP general ledger did not include:
        •	 GLAC 5780, “Imputed Financing Sources.” Statement of Federal Financial
           Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
           Standards for the Federal Government,” July 31, 1995, requires reporting
           entities to measure and report the full cost of producing outputs in general
           purpose financial reports. For an entity to correctly record costs incurred that
           are paid for by other entities, the USSGL requires the accounting system to
           debit GLAC 6730, “Imputed Costs,” and credit GLAC 5780, “Imputed
           Financing Sources,” and requires these accounts to contain the same balance.
           The LMP chart of accounts contained only GLAC 6730. In addition,
           beginning in FY 2011, LMP must report the AWCF’s use of buildings and


4
  As of August 19, 2009, the LMP chart of accounts contained 142 GLACs: 135 GLACs that were listed in
the USSGL and 7 GLACs that were not listed in the USSGL. Of the 135 USSGL GLACs, 3 are used to
record transactions for the Statement of Custodial Activity (GLACs 2980, 5990, and 5991). Because the
AWCF does not prepare that statement, we excluded them from our count.

                                                 6

           other structures paid for using other than Defense Working Capital Funds
           (97X4930) as an imputed cost. Because the LMP chart of accounts did not
           contain GLAC 5780, the AWCF was unable to record imputed costs as
           required by the USSGL.
       •	 Contract Authority GLACs. In first quarter FY 2010, the AWCF reported
          over $11.2 billion in contract authority, which comprised 59 percent of the
          $18.9 billion in total AWCF Budgetary Resources. The USSGL contains
          11 budgetary GLACs that should be in a working capital fund target system to
          record transactions related to the use of contract authority. LMP contained
          only 3 of the 11 GLACs and, therefore, was not recording in the general
          ledger all the data necessary to populate the Statement of Budgetary
          Resources correctly. For example, the Statement of Budgetary Resources
          required 5 of the 11 contract authority GLACs to populate line 6,
          “Permanently Not Available.” However, the LMP chart of accounts did not
          contain these five GLACs. As of December 31, 2009, the AWCF reported
          $5.1 billion in these five GLACs in DDRS. DFAS used manual adjustments
          to create the budgetary account balances. DFAS derived the data from other
          than LMP and other AWCF systems general ledgers.
We discussed with AMC and DFAS personnel the process they followed to develop the
LMP general ledger for the first deployment in FY 2003 to determine how they ensured
the general ledger was USSGL compliant. They told us that many of the individuals
responsible for creating the original general ledger were no longer available. In addition,
because responsible individuals had not documented the process for future reference,
current personnel could not provide us documentation to support the rationale for not
establishing specific GLACs in the LMP general ledger. OUSD(C) and ASA(FM&C)
personnel had not verified that the LMP chart of accounts complied with USSGL
requirements or approved decisions to exclude specific GLACs.

OMB Circular No. A-123, “Management’s
Responsibility for Internal Control,” December 21,      DOD and Army financial
2004, requires management to develop effective          managers should have
internal control over its financial reporting process.  validated the actions taken
The Circular requires that agencies maintain            and ensured that the LMP
documentation of both the controls that are in place    chart of accounts captured all
and the assessment process management used to           AWCF-related business events
determine control effectiveness. The Army and           at the transaction level.
DFAS should have documented how they assessed the LMP business processes, verified
the correct LMP posting logic, and determined whether the LMP general ledger included
all applicable GLACs. DOD and Army financial managers should have validated the
actions taken and ensured that the LMP chart of accounts captured all AWCF-related
business events at the transaction level.

After the initial deployment, the LMP PO and DFAS developed a process for identifying
and implementing changes to GLACs in LMP. However, this process was ineffective
and did not require that ASA(FM&C) personnel approve changes to the LMP chart of
accounts. Based on discussions with DFAS personnel responsible for identifying GLAC
                                             7

changes, we determined that the Army did not add and delete GLACs in LMP to stay
current with changes to the Supplement. For example, the Supplement rescinded the use
of GLAC 1450 for FY 2007 reporting, but LMP continues to populate this GLAC.
DFAS personnel informed us that before August 2009, the Army had added only Army
directed point accounts 5 to existing GLACs. Neither DFAS nor Army personnel could
tell us who was responsible for assessing the impact on LMP of changes made to the
Supplement.

The ASA(FM&C) needs to ensure that Army financial managers examine and document
AWCF business processes and determine whether the LMP chart of accounts contains the
GLACs needed to record the associated events. The Army financial managers need to
document the rationale for deviations from the GLACs and establish any missing GLACs
or remove any unnecessary GLACs from the LMP chart of accounts. In addition, the
ASA(FM&C) should establish responsibility for and develop procedures to monitor
changes to the USSGL chart of accounts and ensure that LMP is updated as necessary
after the release of each new Supplement.

Financial Managers Should Have Required the LMP PO to
Implement the DOD Standard Chart of Accounts
                                      DOD permitted the second deployment of LMP in
    The Army did not implement        May 2009 before the Army implemented the DOD
    the DOD Standard Chart of         Standard Chart of Accounts. The Acting Deputy
    Accounts in LMP … and did         Chief Financial Officer issued a memorandum, DOD
    not plan to implement it before   Standard Chart of Accounts in Standard Financial
    LMP achieved full deployment      Information Structure (SFIS),”August 13, 2007, that
    in October 2010.                  required target systems to implement a DOD
                                      Standard Chart of Accounts as an essential
component for establishing the DOD SFIS environment. However, it did not provide a
specific date for target systems to comply. The Army did not implement the DOD
Standard Chart of Accounts in LMP as of September 30, 2009, and did not plan to
implement it before LMP achieved full deployment in October 2010.

The DOD Standard Chart of Accounts uses USSGL/DOD account numbers that allow
DOD accounting systems to capture the detailed transactional data needed to correctly
populate the financial statements and other financial reports. 6 When properly
implemented in all target systems, the DOD Standard Chart of Accounts will provide a
consistent and reliable financial reporting process and allow the target systems to report


5
  A point account is the 5-position extension added to the GLAC that allows agencies to track agency
specific attributes and information related to financial events. The additional information is needed for
making management decisions. All point accounts must roll up to the original 4-position GLAC.
6
  DOD uses the term “USSGL/DOD account number” to refer to the 9-position account numbers in its
Standard Chart of Accounts. It is comprised of the 4-position USSGL (XXXX) plus a 5-position DOD
standard account extension (.XXXX). GLAC 1310.9000, “Accounts Receivable,” is an example of a
USSGL/DOD account number.


                                                      8

trial balance data directly to DDRS thereby eliminating the need to crosswalk or adjust
the data. Because DOD based the USSGL/DOD account numbers on the USSGL
GLACs, the DOD Standard Chart of Accounts contains some USSGL/DOD account
numbers that would not apply to AWCF operations. However, the DOD guidance did not
identify which USSGL/DOD account numbers LMP needed to implement to record
financial transactions correctly.
The DOD memorandum also allowed target systems to post their chart of accounts in
more detail than required by the DOD Standard Chart of Accounts. However, each target
system must include the DOD Standard Chart of Accounts and crosswalk any of the
unique posting GLACs to a specific USSGL/DOD account number to summarize the
transactional data correctly and transmit the data to DDRS in that standard format. When
the Army initially deployed LMP in FY 2003, the Army established its own unique
5-position GLAC extensions (.XXXX) to record AWCF business transactions. These
extensions were not compatible with the 5-position DOD standard account extensions
now established for the DOD Standard Chart of Accounts. Therefore, the LMP chart of
accounts is currently unable to report to DDRS correctly. LMP PO personnel informed
us that LMP would be capable of using the DOD Standard Chart of Accounts and
interfacing directly with DDRS when LMP is fully compliant with SFIS requirements in
March 2011.
When the Deputy Chief Financial Officer issued the August 2007 guidance,
ASA(FM&C) personnel should have directed AMC and the LMP PO to immediately
implement the DOD Standard Chart of Accounts in LMP. They could have
accomplished this by making changes to LMP so it either:
       •	 posted transactions directly to the new USSGL/DOD accounts, or
       •	 internally crosswalked the LMP GLACs to the DOD Standard Chart of
          Accounts.
Instead, LMP continued to generate and transmit its trial balance data to DFAS in the
same non-standard account structure used by the AWCF legacy accounting systems. As
a result, DFAS must crosswalk the trial balance data to the DOD Standard Chart of
Accounts in DDRS to prepare the AWCF financial statements. To ensure that LMP
contains all the appropriate GLACs and will be able to populate the AWCF financial
statements correctly, the ASA(FM&C) should require the LMP PO to implement the
DOD Standard Chart of Accounts in LMP and work with DFAS to ensure that the LMP
trial balance data can be accurately reported directly to DDRS. In addition, the OUSD(C)
should revise its guidance for the DOD Standard Chart of Accounts and identify by
funding types the core guidance for which specific USSGL/DOD accounts numbers
apply to assist the DOD Components in correctly populating the financial statements.




                                           9

LMP Should Be Recording USSGL Attributes Values
Army financial managers did not ensure that LMP recorded each transaction with the
appropriate USSGL attribute values. The Supplement requires that systems post all
transactions using the appropriate 4-position GLACs and the appropriate attribute values,
as defined in the Supplement, Section IV. The Supplement requires recording the
attribute fields with specific domain values to provide lower-level detail about each
transaction, which satisfy financial reporting requirements. We identified 23 USSGL
attribute fields that a system must populate to comply with Federal Agencies’ Centralized
Trial-Balance System reporting requirements. For each of the 23 USSGL attribute fields,
LMP either did not populate the attribute fields or did not record them correctly.

The LMP PO developed the functionality in LMP to record only 2 of the 23 attributes
(Federal/Non-Federal and Trading Partner), and LMP did not correctly record them.
Specifically, the December 2008 through December 2009 LMP trial balance data showed
that LMP could not distinguish between Federal and non-Federal transactions or identify
the trading partners involved. LMP users have generated numerous system change
requests since 2003 to report problems related to this issue, and Army and DFAS
financial managers have recognized the need to take action to address the problems.
However, LMP system development managers have not sufficiently prioritized these
problems or taken the corrective actions necessary to continue with the final system
deployment in October 2010. LMP PO personnel stated that they plan to correct
problems with the two existing attributes when they implement SFIS requirements in
March 2011. Appendix G explains how incorrectly implementing these two attributes
has adversely affected the Army’s ability to resolve abnormal balances and its material
weakness involving intragovernmental eliminations.

When it initially designed LMP, the Army did not direct the LMP Program Manager to
establish a requirement for populating the remaining 21 of the 23 attributes. LMP PO
personnel informed us that the SAP ERP software had the functionality to populate
15 of the 21 attributes using the SAP ERP software fields available, but it did not
contain data fields for the other six attributes. 7 The ability to record attribute values for
each transaction is essential for a target system to be USSGL compliant. We reviewed
the BTA SFIS Compliance Checklist, version 5.0, that the LMP PO submitted to the IRB
in November 2008. The self-certification checklist reported that LMP would be able to
populate all of the attribute fields in October 2009, when the system achieved compliance
with SFIS requirements. However, in August 2009, Army financial managers and the
LMP PO reported that LMP would not begin populating the attributes until March 2011,
when LMP becomes fully compliant with SFIS requirements. Until the Army
implements the SFIS requirements, LMP is not USSGL compliant at the transaction level
and Army managers have little assurance that LMP can meet financial reporting
requirements.


7
  In December 2009, LMP PO personnel added data fields to the LMP Special Ledger 95 to capture many
of the SFIS data elements not available in the SAP ERP software, including the six attributes we
reviewed.

                                                 10 

LMP Accounts Were Incorrectly Crosswalked to Financial
Reports
LMP sent DFAS trial balance files in a format that requires DFAS to use legacy
procedures to crosswalk the LMP GLAC balances to the monthly Accounting
Report 1307 8 and to the USSGL/DOD accounts in DDRS. DFAS did not correctly
crosswalk the LMP trial balance data directly to the corresponding USSGL accounts in
DDRS. The Supplement, Section V, provides reporting requirements for USSGL
accounts that crosswalk to the financial statements in SF 133, “Report on Budget
Execution and Budgetary Resources,” and FMS 2108, “Yearend Closing Statement.”

The December 2008 through December 2009 end-of-month LMP trial balance files
showed that DFAS did not crosswalk all of the GLAC balances reported in the LMP trial
balance files to the same USSGL/DOD account numbers in DDRS. For example, DFAS
did not use the values reported in the LMP trial balance budgetary GLACs to generate the
Statement of Budgetary Resources. Instead, DFAS continued to derive this data from
budgetary status reports. For example, DFAS incorrectly crosswalked data reported by
the LMP trial balances in the “151X” series of GLACs, which records values related to
Operating Materials and Supplies, to the “152X” series of GLACs, which records values
related to Inventory. DFAS also crosswalked information reported in the LMP trial
balance GLAC 1526, “Work in Process” to GLAC 1410, “Advances and Prepayments.”
Because LMP should be USSGL compliant, this data should not be crosswalked to
different GLACs in DDRS.

The December 2009 Accounting Report 1307 database file contained 3,905 individual
records with an absolute value of $594.7 billion. However, only 2,959 of the 3,905
records (76 percent), with an absolute value of $504.9 billion, originated from the LMP
trial balance files. DFAS supplemented the LMP trial balance data with data from
sources other than AWCF activities and made department-level adjustments to the trial
balance data. DFAS also generated journal voucher transactions during the monthly
financial reporting process. The journal vouchers included inventory accruals, beginning
account balance adjustments, accounts payable adjustments, treasury warrants received,
collections and disbursement account reconciliations, and adjustments to force agreement
between mismatched proprietary and budgetary accounts, all of which should occur in
LMP. The Army and DFAS managers did not identify the new processes or the general
ledger structure needed in LMP to allow direct recording of all AWCF source
transactions at the activity level. Instead, DFAS continued to use the same process to
prepare manual vouchers at the AWCF department level that was in place for the legacy
accounting systems. In addition, DFAS did not forward the journal voucher transactions
to the AWCF activities. As a result, the AWCF activities did not record the data in LMP,
resulting in mismatches between the financial reports available to AWCF managers in
LMP and the AWCF financial reports. ASA(FM&C) should take steps to ensure that


8
 The Accounting Report 1307 is a monthly management report used to provide managers with the monthly
Statement of Financial Position, Statement of Cash Flow, and Statement of Operations for Defense
Working Capital Fund activities.

                                                11 

AMC and DFAS financial managers develop LMP processes and USSGL posting logic
needed to accurately record all AWCF financial events and ensure that the LMP trial
balance data feeds directly to DDRS and are crosswalked correctly.

Financial Managers Must Document How the LMP Established
Transaction Codes Comply with the USSGL Posting Logic
The LMP PO did not have information readily available to demonstrate that LMP can
correctly record transactions in compliance with the SFIS Transaction Library. The core
                                           financial system requirements state that a core
  ... a core financial system must have    financial system must have the automated
  the automated functionality to           functionality to consistently record like
  consistently record like accounting      accounting events using standard transactions
  events using standard transactions ... and to define the general ledger account
postings used by each standard transaction. The standard transactions should be
consistent with USSGL posting logic and include all appropriate propriety, budgetary,
and memorandum accounts.
The LMP PO had developed a posting logic that applied unique codes for each
transaction posted in LMP. However, LMP could not generate a report of the posting
logic for each transaction code. We requested system-generated documentation showing
the LMP transaction codes and posting logic used for each financial event that would
result in an entry to the general ledger. LMP PO personnel stated that they had not
documented the LMP transaction library and they would require approximately
1,600 work hours, at a cost of $265,000, to develop the query producing the transaction
code documentation. They also stated that they did not have the funds for the task and,
therefore, could not develop the query to produce a report of the transaction code library.
Without the ability to review the entire LMP transaction code library and compare it with
SFIS Transaction Library, neither Army financial managers nor auditors can validate that
the LMP posting logic records AWCF financial events as required by the SFIS
Transaction Library.

To comply with DOD SFIS implementation policy, the LMP PO will need to document
the system’s transaction code library, showing the GLAC posting logic for each financial
event and how the system complies with the SFIS Transaction Library and USSGL. As a
target system, LMP should record financial transactions according to the SFIS
Transaction Library. Without this information, the Army has limited assurance that they
have correctly implemented the USSGL posting logic for AWCF financial transactions.
Appendix E describes how DOD uses the SFIS Transaction Library to ensure that DOD
target systems will comply with Supplement, Sections III and IV.

LMP Development Process Was Ineffective
The Army and DOD financial management communities did not establish the appropriate
senior-level governance over the development of LMP financial management
requirements and processes. As a result, the Army deployed LMP without first ensuring
that the system’s general ledger was USSGL compliant and contained the GLACs and
functionality to resolve long-standing material weaknesses related to AWCF financial

                                            12 

reporting. As of September 30, 2009, the Army has spent $1.1 billion developing LMP
without ensuring that its general ledger module is USSGL compliant and able to resolve
the AWCF material weaknesses in financial reporting.

ASA(FM&C) Oversight of the LMP Development Process was
Ineffective
The ASA(FM&C) did not assume overall authority for determining, establishing, and
approving the financial requirements needed to ensure that LMP was USSGL compliant
and included the functionality to resolve the AWCF’s long-standing material weaknesses.
In the Office of the ASA(FM&C), the Deputy Assistant Secretary of the Army (Financial
Operations) was responsible for the policies,
                                                      The ASA(FM&C) did not assume
procedures, programs, and systems pertaining to
                                                      overall authority … to ensure that
finance and accounting activities and operations,
                                                      LMP was USSGL compliant and
Army financial management systems, and data
                                                      included the functionality to
integration activities. The ASA(FM&C) had also
                                                      resolve the AWCF’s long-standing
established the Financial Information
Management Office to ensure that the Army             material weaknesses.
modernized and integrated its financial
management systems and processes to provide the complete range of financial and cost
information needed for Army business transactions. Although both offices had direct
involvement in governing the development of the Army’s General Fund Enterprise
Business System, neither office had active involvement in developing LMP. 9 The
Deputy Assistant Secretary of the Army (Financial Operations) should have also
developed procedures to ensure that LMP would achieve and maintain USSGL
compliance. Instead, senior Army financial managers allowed AMC and DFAS to have
these responsibilities. While involving these organizations in the system development
was essential because they represent the primary users, developing, documenting, and
approving system financial requirements should have remained the overall responsibility
of the Office of the ASA(FM&C). The documentation reviewed showed that
ASA(FM&C) personnel were not members of any of the LMP review boards, which were
responsible for reviewing, approving, and monitoring LMP requirements.

In addition, senior Army managers did not ensure that Army and DFAS financial
managers developed the LMP business processes needed to ensure that all transactional
data needed to populate the AWCF financial statements both processed through the LMP
general ledger and complied with Federal Accounting Standards Advisory Board
accounting standards. The DOD Business Enterprise Architecture and Enterprise
Transition Plan identified LMP as the AWCF target system. Therefore, to assist in
correcting the long-standing AWCF financial reporting problems that prevented the
Army from achieving auditable financial statements, it was imperative that Army
financial managers design LMP with USSGL compliant GLACs, attributes, and
transactions codes.


9
  The General Fund Enterprise Business System was the Army’s other ERP system in development that
included core financial management functionality.

                                                 13 

ASA(FM&C) senior personnel’s lack of involvement significantly contributed to the
Army’s inability to ensure that financial requirements were implemented in LMP
correctly. ASA(FM&C) personnel did not
approve the implementation of LMP chart            ASA(FM&C) senior personnel’s lack
of accounts and had limited involvement in the     of involvement significantly
decisions not to take immediate action to          contributed to the Army’s inability to
implement DOD SFIS requirements or the             ensure that financial requirements
DOD Standard Chart of Accounts. Financial          were implemented in LMP correctly.
management requirements generally did not
receive sufficient priority during the LMP system development process. The LMP PO
and AMC decided to delay LMP compliance with DOD SFIS requirements and the DOD
Standard Chart of Accounts until March 2011, which is 5 months after the Army’s final
LMP deployment.

The ASA(FM&C) should take a more active role in overseeing any further development
of LMP’s financial requirements. ASA(FM&C) personnel should establish and
document the internal control processes needed for monitoring and implementing LMP
financial requirements and maintaining compliance with the USSGL at the transaction
level. This includes developing specific roles and responsibilities for all LMP
stakeholders to ensure the successful implementation of the system and assuming direct
approval authority over the implementation of future financial management system
requirements.

OUSD(C) and BTA Did Not Provide Sufficient Oversight
The OUSD(C) and BTA were responsible for ensuring that new ERP systems, when
deployed, are compliant with Federal financial management requirements, the USSGL,
and other DOD financial requirements. Neither DOD office provided sufficient oversight
over the development of LMP to ensure that it would contain the required functionality to
                                    populate the AWCF financial statements when
  Neither DOD office provided       deployed. The OUSD(C) directed DFAS to work
  sufficient oversight over the     with the LMP PO to obtain requirement compliance,
  development of LMP to ensure      user acceptance, and operational readiness. DFAS
  that it would contain the         financial personnel stated that they worked with the
  required functionality to         Army and the LMP PO to ensure that LMP
  populate the AWCF financial       incorporated financial improvements that met the
  statements when deployed.         Army’s plan to improve its logistics and financial
                                    processes. Specifically, DFAS personnel assisted
with requirements definition, system design interfaces, system validation and testing, and
implementation strategies. However, DFAS Shared Services personnel informed us that
they did not validate whether the Army had implemented the financial management
system functional requirements in LMP correctly. DFAS also established a project
management office that functioned as a liaison between the LMP PO, DFAS, and Army
personnel using the system.



                                           14 

BTA personnel stated that their office provided both the DOD enterprise architecture that
LMP must comply with and the test scripts for the Army to use with LMP before
deployment, but they did not oversee the Army’s work to ensure that LMP complied
with the USSGL and the DFAS Blue Book. Instead, the BTA relied on the Army’s
self-assessment of LMP’s compliance with legal and regulatory requirements for core
financial management systems, including FFMIA requirements. However, neither the
OUSD(C) nor BTA required any type of independent assessment of the Army’s
self-certification process that would have ensured that LMP actually complied with
FFMIA requirements. To assist the ASA(FM&C) and developers of other financial
management systems, the DCMO and the OUSD(C) should work with BTA to increase
the level of validation required to assess SFIS compliance, including the correct
implementation of the SFIS Transaction Library and USSGL requirements contained in
the Business Enterprise Architecture. In addition, because of the wide range of
functionality that a DOD activity can design in a target system, the DCMO, the
OUSD(C), and BTA should take steps to identify by funding type (for example, General
Fund or Working Capital Fund) the core guidance for general ledger accounts and SFIS
transaction code requirements.

LMP Has Not Achieved FFMIA Compliance
To certify that LMP was substantially compliant with the FFMIA, the Army needed to
ensure that LMP complied with the three FFMIA, Section 803(a), requirements (defined
in Appendix D). In May 2007, the LMP project manager certified to the ASA(FM&C)
that the LMP Deployed/Operational Production Baseline system was in substantial
compliance with the FFMIA. The certification stated that LMP complied substantially
with Federal financial management systems requirements, applicable Federal accounting
standards, and the USSGL at the transaction level. The basis for the LMP project
manager’s certification included an assessment performed by the U.S. Army Audit
Agency (USAAA) in FY 2006 and FY 2007. However, LMP’s inability to record
transactions using the USSGL 4-digit GLACs and all applicable attribute values since its
inception made the system non-USSGL compliant and unable to achieve substantial
compliance with FFMIA.




                                           15 

First Deployment Functionality Compliance Assertions Were
Flawed
In September 2007, the USAAA reported the LMP system’s first deployment
functionality substantially complied with the FFMIA. The USAAA examinations began
in July 2004 and concluded with the issuance of a report in September 2007. The report
addressed the requirements the Army determined applicable to the LMP’s first
                              deployment baseline functionality. The USAAA used the
  The assessment did not      requirements from the DFAS Blue Book, version 4.1.2,
  include any new DFAS        November 2004, 10 to determine the baseline of Federal
  Blue Book and FSIO          financial management system requirements needed to design
  requirements                and build its first deployment functionality. The Army also
  published after             considered any Financial Systems Integration Office (FSIO)
  December 2005 …             Federal financial management requirements not yet
                              published in the DFAS Blue Book as of December 2005. 11
To facilitate a timely completion of the first deployment system design and build phases,
and to avoid other information technology project risks associated with continual
requirements change, the Army did not adjust the first deployment functionality
requirements baseline. The assessment did not include any new DFAS Blue Book and
FSIO requirements published after December 2005 and before the completion of FFMIA
system compliance testing in September 2007.

The USAAA validated that only 688 Federal financial management system requirements
were applicable to the first deployment’s functionality and needed to be met during
compliance testing in 2006 and 2007. To validate compliance with the requirements,
USAAA observed LMP PO personnel’s testing of applicable functionality in quality
assurance and production environments, reviewed system documentation, and questioned
subject matter experts. In its report, the USAAA attested that LMP’s first deployment
functionality met the intent of 672 of the 688 requirements and substantially complied
with the FFMIA. However, as the AWCF general ledger system, LMP needed to comply
with at least the FSIO’s general ledger requirements that mandate that the system be able
to define standard transactions consistent with the USSGL posting rules. According to
the FSIO requirements, all transactions recording financial events must post to the
general ledger regardless of the transactions’ origin. 12 Because the system was not
USSGL compliant as configured during the first deployment, the assertion made by the




10
   The purpose of the DFAS Blue Book is to assist DOD system and program managers in attaining 

compliance with the Federal financial management requirements issued by the FSIO and other financial

requirements.

11
   Core financial system requirements are outlined in FSIO’s “Core Financial System Requirements,” 

January 2006, and subsequent revisions.

12
   Transactions originating in mixed systems may post to the target system’s general ledger at a summary

level, depending on an agency’s overall financial management system design and need. At a minimum,

however, summary transactions must post at a level that maintains the accounting classification elements

and attributes needed to support financial reporting. The target system’s general ledger must summarize 

and maintain account balances at both the USSGL GLAC level and attribute level.


                                                    16 

LMP Project Manager in May 2007 should have addressed only the LMP system’s
compliance with the 672 Federal financial management system requirements actually
tested. The assertion should not have implied that the LMP, as a core financial system,
was substantially FFMIA compliant.
LMP Needed Assessment of Subsequent Deployment
Functionality
The FSIO issued new system requirements in January 2006 subsequent to the Army’s
establishment of the December 2005 FFMIA requirements baseline. The documents
included 36 additional FFMIA requirements that the Army needs to validate during future
testing of LMP functionality. The Army will then need to demonstrate that LMP or other
components of the AWCF core financial management system meet all mandatory Federal
financial management system requirements. The Army should test this functionality
when it validates that LMP complies with the SFIS Transaction Library to ensure that
LMP has achieved USSGL compliance as required by DOD FMR, volume 1.

LMP Was Approved to Proceed Toward Full Deployment Without
Implementing SFIS Requirements
In August 2005, DOD established the SFIS Transaction Library as the DOD solution for
achieving USSGL compliance in its target systems. Since FY 2005, DOD has further
defined the SFIS requirements, including establishing a requirement for target systems to
meet the mandated SFIS requirements issued by BTA. The USD(C)/CFO issued
memorandum, “Standard Financial Information Structure,” August 4, 2005, instructing
that the IRB would not approve a target system already in limited deployment for full
deployment until the system had successfully completed SFIS compliance testing. The
Army currently does not plan to achieve SFIS compliance until after it completes the
final LMP deployment in October 2010. This schedule places the Army at great risk of
fully deploying a system that is not in substantial compliance with FFMIA.

The IRB permitted the Army to further deploy LMP in May 2009 and proceed toward
full deployment in October 2010 even though LMP had not achieved or demonstrated
that it was SFIS compliant. In addition, the IRB
review and approval process allowed the Army to        The IRB permitted the Army
self-certify that LMP complied with the USSGL          to further deploy LMP in
and SFIS requirements without independently            May 2009 and proceed toward
assessing whether LMP could fulfill all                full deployment in October 2010
requirements as intended. The Army’s Business          even though LMP had not
Enterprise Architecture 5.0 self-certification,        achieved or demonstrated that it
submitted in FY 2009, reported that LMP would          was SFIS compliant.
achieve SFIS compliance in October 2009. At
that time, the Army intended to fully deploy LMP in October 2010. The milestone tied
directly to achieving full deployment capability. Therefore, achieving SFIS compliance
would have occurred prior to October 2010 and permitted the IRB to approve LMP for
full operational capability as described in the August 2005 guidance.



                                           17 

In its September 2009 Business Enterprise Architecture 6.0 self-certification, the Army
reported that LMP would not achieve SFIS compliance until March 2011. 13 In addition,
the documentation supporting the certification stated that the ability to attain SFIS
compliance by March 2011 was contingent on the receipt of additional funding or if
AMC provided development effort tradeoffs. To comply with August 2005 guidance, the
IRB should not approve LMP for full deployment unless the LMP PO first successfully
completes SFIS compliance testing. This would entail DOD delaying approval for full
deployment until after March 2011, when the Army plans to have successfully
demonstrated that it has implemented and tested for SFIS compliance.
                                 The USD(C)/CFO and DCMO should delay the final
  The USD(C)/CFO and
                                 LMP deployment in October 2010 until, at minimum,
  DCMO should delay the
                                 the Army can demonstrate that funding is available and
  final LMP deployment in
                                 an approved remediation plan is in place to correctly
  October 2010 …
                                 establish the SFIS requirements and DOD Standard
                                 Chart of Accounts at the transaction level. DOD’s
development of the SFIS Transaction Library and DOD Standard Chart of Accounts were
significant steps forward in measuring USSGL compliance, but the USD(C)/CFO,
DCMO, and BTA must actively enforce these Business Enterprise Architecture
requirements. Future assessments of LMP’s FFMIA must validate compliance with SFIS
requirements.

Reassessing System Requirements and Implementation
On June 28, 2010, OMB issued Memorandum 10-26 (OMB M-10-26), “Immediate
Review of Financial Systems IT Projects,” establishing Government-wide policies
associated with financial system modernization. These new policies require Federal
agencies to set the scope for financial system modernizations in a manner that reduces
project costs, aligns projects more closely to top priority business needs, accelerates
deployments, and improves the performance of the systems once deployed. The
memorandum noted that Federal financial system modernizations projects had become
too large and complex. The memorandum noted that by setting the scope of projects to
achieve broad-based business transformations rather than focusing on essential business
needs, Federal agencies had experienced substantial cost overruns and lengthy delays in
planned deployments. Compounding this problem, projects persistently fell short of
planned functionality and efficiencies once deployed. On July 6, 2010, the Deputy
Secretary of Defense and OMB’s Deputy Director for Management established a working
relationship for implementing OMB M-10-26 within DOD. The senior officials agreed to
select three to five DOD financial systems with greatest potential for cost and schedule
improvements for review. On July 28, 2010, the OMB Federal Chief Information Officer
issued OMB Memorandum 10-31 (OMB M-10-31), “Immediate Review of Information
Technology Projects,” which stated that in order to justify future funding for projects,
agencies will need to demonstrate that project risks can be reduced to acceptable levels


13
  The LMP PO has begun implementing a 5-phase plan to develop the structure needed for LMP to
become SFIS compliant. LMP PO personnel reported that in May 2010, they completed the second phase
of the plan that has identified the functionality needed to populate each of the SFIS data elements. The
LMP PO plans to implement the remaining three phases by March 2011.

                                                   18 

through actions such as setting proper project scope, defining clear deliverables and
mission-oriented outcomes, and putting in place a strong governance structure with
explicit executive sponsorship. Projects not meeting these criteria will not be continued.
As part of the FY 2012 budget formulation process, agencies will be required to develop
and put in place improvement plans for their highest risk information technology
projects.

Our review of the LMP general ledger showed that it had fallen short of the functionality
needed to support AWCF financial reporting requirements at the transaction level.
Specifically, DOD and Army financial managers had not clearly defined the general
                                        ledger accounts and attributes needed to report
  …USD(C)/CFO and DCMO                  AWCF financial events correctly. They also had
  should advise the Deputy              not adequately defined the AWCF end-to-end
  Secretary of Defense and OMB          processes and functionality required to report
  Deputy Director for                   financial events within the LMP general ledger.
  Management to select LMP as           Therefore, the USD(C)/CFO and DCMO should
  one of the information                advise the Deputy Secretary of Defense and OMB
  technology projects for review        Deputy Director for Management to select LMP as
  consistent with OMB                   one of the information technology projects for
  Memoranda M-10-26 and                 review consistent with OMB Memoranda M-10-26
  M-10-31.                              and M-10-31. That review should consist of
determining whether further investment is warranted through an analysis of alternative
solutions conducted by the DOD Director of Cost Assessment and Program Evaluation.
The analysis should determine whether the cost benefit of program continuation and
modification is greater or less than the cost benefit of program cancellation and recourse
to alternative solutions to obtain DOD compliance with the USSGL requirements.

On August 18, 2010, the Army met with the DOD IRB. The IRB directed the Army to
develop an ERP strategy for addressing how the Army will integrate the functions
currently performed by LMP and the other Army ERPs. The IRB gave the Army until
December 15, 2010, to present a way forward. Until the Army develops, and the IRB
approves, the Army’s ERP strategy, the continued deployment of LMP is questionable.
This matter should be of interest to the DOD Efficiencies Task Force that the Secretary
of Defense recently established to move DOD toward more cost effective ways of doing
business. The need for the Army to develop an ERP strategy places LMP at high risk
of not achieving the DOD goal of implementing cost effective solutions. Therefore,
the USD(C)/CFO and DCMO should advise the Deputy Secretary of Defense and OMB
Deputy Director for Management that they recommend that the Army’s ERP strategy,
including any further deployment of LMP, be reviewed by the DOD Efficiencies Task
Force.


Conclusion
The Army did not provide sufficient governance over the implementation of LMP as a
DOD target general ledger system. As currently implemented, LMP does not achieve
USSGL compliance at the transaction level and therefore cannot be substantially

                                            19 

compliant with the FFMIA, as certified by the Army in 2007. Our review of FY 2009
trial balance data showed that LMP does not report general ledger data correctly at the
transaction level. In addition, LMP did not contain all necessary GLACs and did not
populate any of the required USSGL attributes correctly. Because LMP cannot produce
its trial balance data in the DOD Standard Chart of Accounts format, it is unable to report
directly to DDRS. Consequently, DFAS will be limited to using error-prone crosswalks
to produce financial statements and reports. Further, the LMP PO cannot demonstrate
that LMP transaction codes contain the appropriate functionality to record AWCF
financial transactions in the correct GLACs as required by the USSGL and SFIS
Transaction Library. The Army does not plan to implement either the DOD SFIS
requirements or the DOD Standard Chart of Accounts before March 2011, which is
5 months after LMP’s final deployment to all AWCF activities.

                                  As of September 30, 2009, the Army has spent
 … the Army has spent             $1.1 billion and plans to complete the LMP deployment
 $1.1 billion and plans to        in October 2010 without first ensuring it has
 complete the LMP                 implemented a USSGL compliant system that can
 deployment in October 2010       properly record AWCF business activity and produce
 without first ensuring it has    auditable financial statements. As of March 2010, LMP
 implemented a USSGL              has failed to correct any of the AWCF material
 compliant system …               weaknesses. The USD(C)/CFO and DCMO should
                                  advise the Deputy Secretary of Defense and OMB’s
Deputy Director for Management that LMP should be selected as one of the DOD high-
risk systems for review consistent with OMB Memoranda M-10-26 and M-10-31, that the
Army’s ERP strategy should be reviewed by the DOD Efficiencies Task Force, and that
the Director of Cost Assessment and Program Evaluation has been requested to conduct
an analysis of alternatives. They should also work with the BTA to delay any further
deployment of LMP until the Army demonstrates that funding is available and an
approved remediation plan is in place to correctly establish       As of March 2010,
the SFIS requirements and DOD Standard Chart of                    LMP has failed to
Accounts. The ASA(FM&C) must assume direct control                 correct any of the
over the development of LMP, or its successor, as a target         AWCF material
general ledger system and report to BTA and in its FY 2010
                                                                   weaknesses.
Annual Statement of Assurance that LMP is not substantially
compliant with FFMIA.




                                            20 

Recommendations, Management Comments, and Our
Response
1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Deputy Chief Management Officer advise the Deputy
Secretary of Defense and the Deputy Director for Management at the Office of
Management and Budget that:
       a. The Logistics Modernization Program system should be selected as one of
the DOD financial system projects with the greatest need for improvement,
consistent with the Office of Management and Budget Memoranda M-10-26 and
M-10-31.

Joint USD(C) and DCMO Comments
The USD(C) and DCMO agreed and stated that LMP has been designated to participate
in the Financial Systems Review in accordance with OMB Memorandum M-10-26.

Our Response
The USD(C) and DCMO comments are responsive.
       b. The Director of Cost Assessment and Program Evaluation has been
requested to conduct an analysis of alternatives to determine whether the cost
benefit of program continuation and modification is greater or less than the cost
benefit of program cancellation and recourse to alternative solutions to obtain DOD
compliance with the U.S. Government Standard General Ledger requirements.

Joint USD(C) and DCMO Comments
The USD(C) and DCMO disagreed and stated that they believe it would not be an
effective use of resources to conduct an analysis of alternatives on a program already
fielded to the Army. They stated that the DCMO would, however, issue an Acquisition
Decision Memorandum to establish a future direction for LMP.

Our Response
The USD(C) and DCMO comments are partially responsive. They stated that the DCMO
would issue an Acquisition Decision Memorandum to address LMP’s future direction.
An Acquisition Decision Memorandum documents key management decisions related to
a system and the alternatives assessed in reaching that decision. This memorandum
should also address how the DCMO assessed the cost effectiveness of the Army plan for
ensuring LMP achieves FFMIA compliance and resolves its sustainment issues. In
addition, the memorandum should address what steps the Army needs to take for
sustaining LMP once the current contract expires in November 2011. The IRB made the
decision in September 2010 to recertify the funding for full LMP deployment in October
2010. During its August 2010 session, the IRB heard from DOD Cost Assessment and
Program Evaluation representatives who suggested that the Army use the development of
an overall ERP strategy as an opportunity to document an analysis of alternatives. The
IRB also requested that the Army address its separate SAP ERP efforts and develop an

                                          21 

overall Army ERP strategy by December 2010. We request that the USD(C) and DCMO
reconsider and provide additional comments to the final report addressing when they will
issue the Acquisition Decision Memorandum, how it relates to the Army’s ERP strategy,
and whether the memorandum will address the cost effectiveness of LMP achieving
FFMIA compliance and resolving its sustainment issues.
       c. They recommend that the DOD Efficiencies Task Force review the
Army’s Enterprise Resource Planning strategy, including any investment in the
further deployment of the Logistic Modernization Program system.

Joint USD(C)and DCMO Comments
The USD(C) and DCMO partially agreed and stated that the Army is working with the
DCMO and BTA to develop an overall Army ERP strategy that includes LMP. They also
stated that the Combined IRB for Acquisition is tasked with ensuring business system
investment are made in the best interest of the DOD enterprise. The Combined IRB for
Acquisition is evaluating the overall Army ERP strategy and would be the appropriate
governance body to refer matters to the DOD Efficiencies Task Force.

Our Response
The USD(C) and DCMO comments are partially responsive. We agree that the
development of an overall Army ERP strategy is the correct way to resolve long-standing
financial reporting issues. However, we believe that along with the Combined IRB for
Acquisition, the DOD Efficiencies Task Force should review the Army’s ERP strategy to
ensure that the final solution is cost effective. As the decision authority for the Combined
IRB for Acquisition, the DCMO should refer this issue to the task force. We request that
the DCMO reconsider and provide additional comments to the final report addressing the
actions to be taken to refer the Army’s ERP strategy to the DOD Efficiencies Task Force.
2. We recommend that the Director of Cost Assessment and Program Evaluation
conduct the analysis of alternatives referenced in Recommendation 1.b.

Management Comments Required
The Director of Cost Assessment and Program Evaluation did not comment on a draft of
this report. We request the Director provide comments to the final report.
3. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Deputy Chief Management Officer work with the Business
Transformation Agency to:
       a. Delay the further deployment of the Logistics Modernization Program
system until the recommended cost benefit analysis and DOD Efficiencies Task
Force review are completed. Regardless of the analysis results, at a minimum,
require the Army to demonstrate that funding is available and a plan is in place to
correctly establish the Standard Financial Information Structure requirements and
DOD Standard Chart of Accounts at the transaction level.




                                            22 

Joint USD(C) and DCMO Comments
The USD(C) and DCMO partially agreed and stated that they did not believe they should
delay LMP implementation until the cost benefit analysis or DOD Efficiencies Task
Force review are completed. They stated that on September 2, 2010, the Commanding
General, AMC conducted a Go-Live Readiness review of the third deployment sites and
determined that the sites were prepared to transition to LMP in October 2010. They also
stated that the Secretary of the Army had certified to Congress the AMC’s readiness for
this deployment.
However, the USD(C) and DCMO agreed that the Army should demonstrate the
availability of funding and ensure that a plan is in place to establish the SFIS
requirements and DoD Standard Chart of Accounts at the transaction level. They stated
that the Army has demonstrated to them that it has completed these actions.

Our Response
The USD(C) and DCMO comments are partially responsive. The DOD guidance for
implementing ERP solutions required that new ERP systems meet established SFIS
requirements before allowing the full deployment of the system. However, DOD did not
enforce this requirement in deploying LMP. The DOD decision to proceed with the
October 2010 deployment allowed the Army to fully deploy a non-compliant system that
incorrectly reports AWCF financial information and that will require additional DOD
funding to rectify noncompliance issues. The current Army plan does not implement full
SFIS functionality until at least March 2011. In addition, the IRB has questioned the
reasonableness of the current Army ERP strategy and has given the Army until December
2010 to present an overall strategy. Therefore, we believe a delay in the final LMP
deployment was warranted until at least these actions had occurred. Based on their
decision to fully deploy LMP on October 21, 2010, we request that the USD(C) and
DCMO provide additional comments to the final report detailing how they will ensure
LMP compliance with SFIS requirements and the DOD Standard Chart of Accounts at
the transaction level.
       b. Update the “DOD Standard Chart of Accounts in Standard Financial
Information Structure (SFIS),” August 13, 2007, policy memorandum and DOD
Financial Management Regulation, volume 1, to identify by funding types the core
guidance for general ledger accounts and Standard Financial Information Structure
transaction codes.

Joint USD(C) and DCMO Comments
The USD(C) and DCMO agreed and stated that DOD issued an updated DOD Standard
Chart of Accounts and SFIS posting guidance for FY 2010 and FY 2011. In addition,
they stated that DOD is working diligently to complete a transaction library at the DOD
Standard Chart of Accounts level providing posting guidance for both General Fund and
Working Capital Fund programs. They anticipate the completion of the entire General
Fund and Working Capital Fund set of transaction level guidance in March 2011.




                                           23 

Our Response
The USD(C) and DCMO comments are responsive.
      c. Increase the level of validation required to assess compliance with the
Standard Financial Information Structure, including the transaction library and the
U.S. Government Standard General Ledger requirements in the Business
Enterprise Architecture.

Joint USD(C) and DCMO Comments
The USD(C) and DCMO agreed and stated that they were piloting an SFIS and USSGL
validation process, which expands the current Financial Management IRB process. The
process validates system configuration in accordance with SFIS business rules and the
DOD Standard Chart of Accounts requirements. They also stated that if the pilot is
expanded to all ERP systems under development, it would become part of the Financial
Management IRB process.

Our Response
The USD(C) and DCMO comments are responsive. We believe the SFIS and USSGL
validation process should become a standard part of the Financial Management IRB
process. If the pilot is not expanded, other actions should be taken to increase the level of
validation required to ensure compliance with SFIS requirements.
4. We recommend that the Assistant Secretary of the Army (Financial Management
and Comptroller) assume operational control over the development, approval, and
implementation of the Logistics Modernization Program, or its successor, system
financial requirements. Specifically,
       a. Develop an internal control structure that assigns specific roles and
responsibilities for all system stakeholders to ensure successful implementation and
maintenance of the system, including responsibility for developing the system
processes and posting logic needed to accurately record all financial events,
monitoring changes to the U.S. Government Standard General Ledger and DOD
Standard Chart of Accounts and update the system as necessary.

ASA(FM&C) Comments
The ASA(FM&C) agreed and stated that she would continue to provide oversight of
LMP developmental activities through use of the Army's Business System Information
Technology Executive Steering Group. In addition, she stated that her office would
monitor changes to the USSGL and DOD Standard Chart of Accounts to ensure that the
LMP chart of accounts remains current. The ASA(FM&C) is also developing an Army
financial operations standard operating procedure related to updating the chart of
accounts in Army ERP systems.




                                             24 

Our Response
The ASA(FM&C) comments are responsive. The standard operating procedure should
clearly specify the roles and responsibilities for all aspects of developing and maintaining
the Army ERP systems.


b. Assume direct authority over the implementation of any further financial
management requirements.

ASA(FM&C) Comments
The ASA(FM&C) agreed and stated that she would assume oversight of LMP financial
management requirements. The oversight will include ensuring that LMP adds the
required accounts to the general ledger structure, completes and maintains compliance
with SFIS requirements, and implements any additional system changes and other
transactional adjustments required to correct LMP abnormal balance conditions. She also
stated that she will coordinate and sign a memorandum of agreement/understanding
reflecting this new role with all LMP stakeholders and is leading a team to develop and
manage an integrated plan addressing LMP systems changes, general ledger updates,
SFIS compliance, and data cleansing.

Our Response
The ASA(FM&C) comments are responsive.
        c. Examine and document all Army Working Capital Fund business
processes, identify the U.S. Government Standard General Ledger accounts needed
to record events, document the inclusion or exclusion of all U.S. Government
Standard General Ledger accounts in the Logistics Modernization Program system,
or its successor, and establish any missing U.S. Government Standard General
Ledger accounts in the Logistics Modernization Program, or its successor, system’s
chart of accounts.

ASA(FM&C) Comments
The ASA(FM&C) agreed and stated that the LMP PO will add the 42 missing general
ledger accounts and establish the business rules needed to identify the posting logic for
populating each account. She also stated that developing the business rules would
determine the final number of accounts required.

Our Response
The ASA(FM&C) comments are responsive. The business rules and posting logic should
cover all AWCF business processes and include all the USSGL accounts needed to report
these events in the LMP general ledger. The rationale for not adding any of the 42
accounts should be documented.
      d. Report to the Business Transformation Agency and in its FY 2010 Annual
Statement of Assurance that the Logistics Modernization Program system is not


                                            25 

substantially compliant with the Federal Financial Management Improvement Act
of 1996 until the Army can:
              (1) Implement and validate compliance with the U.S. Government
Standard General Ledger Standard Financial Information Structure Transaction
Library. This should include ensuring the transaction codes populate the correct
attribute values in each transaction.
            (2) Implement the DOD Standard Chart of Accounts in the Logistics
Modernization Program, or its successor, system.

ASA(FM&C) Comments
The ASA(FM&C) partially agreed and stated that the Army had submitted the FY 2010
Statement of Assurance before receiving a draft of this report. She also stated that LMP
requirements were developed before DOD adopted SFIS and that they have developed a
5-phase process for achieving SFIS compliance by March 2011. She asserts that these
phases will complete SFIS development and provide compliant interfaces with DDRS
and an electronic data warehouse for SFIS attributes. In addition, she stated that LMP
would add the 42 missing general ledger accounts and develop a standard operating
procedure to ensure LMP compliance with the DOD Standard Chart of Accounts.

Our Response
The ASA(FM&C) comments are responsive. The Army’s FY 2010 Statement of
Assurance provided sufficient notification that Army systems were not FFMIA
compliant. The ASA(FM&C) must continue to report FFMIA non-compliance in the
Army’s annual statement of assurance and financial statements until LMP has complied
with all requirements of FFMIA, Section 803(a).




                                           26 

Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through September 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
The Army was not able to provide all the LMP data we requested. Specifically, we
requested a file of all LMP transaction codes documenting the logic used to post financial
transactions to the GLACs. The LMP PO was not able to provide the data, so we were
unable to determine whether the transaction codes established in LMP had implemented
the USSGL transaction codes correctly. As a result, we could not determine whether the
LMP posting logic fully complied with the USSGL. We believe the evidence we did
obtain provides a reasonable basis for our findings and conclusions based on our audit
objective.

We reviewed Army and DFAS procedures to establish and maintain the LMP general
ledger, as well as the processes followed by the DOD BTA and the OUSD(C) to ensure
that LMP complied with DOD policies and regulations governing the deployment of
financial systems that can produce general ledger postings in the correct GLACs
according to USSGL posting logic. We interviewed staff from the OUSD(C), BTA,
Office of the Deputy Assistant Secretary of the Army (Financial Operations), DFAS,
AMC, CECOM Life Cycle Management Command, and Aviation and Missile Life Cycle
Management Command. We also interviewed personnel in the LMP PO and LMP
contractor personnel.

From the LMP PO, we obtained the LMP chart of accounts in use during FY 2009,
including the account attributes used. We judgmentally reviewed trial balance files
submitted to DFAS Indianapolis by the AWCF activities using LMP. Specifically, we
reviewed Accounting Report 1307 data files compiled by DFAS for December 2008,
January 2009, March 2009, May 2009, and December 2009 to determine whether LMP
complied with the USSGL at the transaction level. We selected these data files because
they showed how DFAS used the trial balances to populate the general ledger accounts
on the quarterly financial statements. We also selected the May 2009 data file to assess
the impact of the LMP second deployment on the general ledger accounts.

We determined whether LMP complied with the USSGL by comparing LMP’s chart of
accounts to the requirements contained in the Supplement. Specifically, we determined
whether the LMP chart of accounts contained all the GLACs required by the USSGL to
support the AWCF, LMP posted transactions using the mandatory USSGL attributes, and
LMP GLACs were crosswalked to the correct USSGL accounts for financial reporting.
We also analyzed the LMP trial balances and Accounting Report 1307 files to identify
any abnormal GLAC balances or anomalies that existed at the AWCF activity level or at
the USSGL GLAC level. We reviewed the procedures followed by DFAS Indianapolis,
Departmental Reporting Directorate personnel for the monthly Accounting Report 1307
financial reporting process to determine the type, quantity, and value of manual journal
vouchers they prepared for the AWCF; where DFAS obtained the source data for the
vouchers; and why it was necessary to manually adjust the LMP trial balance data.

                                           27 

We coordinated with Government Accountability Office (GAO) personnel who were
evaluating how the Army implemented LMP during the May 2009 deployment. We also
coordinated with and interviewed personnel from USAAA who had conducted the
attestation engagement to assess FFMIA compliance of LMP. We examined their
database of FFMIA testing results and interviewed auditors to determine whether their
documentation contained sufficient evidence to support how the LMP chart of accounts
complied with the USSGL. We considered the following laws, regulations, and policies
in evaluating Army and DOD procedures, the LMP GLAC structure, and the Army’s
plans to complete LMP system development and deployment.
    • FFMIA
    • Federal Managers’ Financial Integrity Act of 1982
    • Federal Financial Management System Requirements
    • OMB Circular No. A-127, “Financial Management Systems,” January 9, 2009
    • DOD FMR, volumes 1, 4, 6A, 6B, and 11B
    • U.S. Treasury Financial Manual, USSGL Supplement
    • SFIS Transaction Library
    •	 USD(C) memorandum, “Standard Financial Information Structure (SFIS)

            Implementation Policy,” August 4, 2005

    •	 Acting Deputy Chief Financial Officer memorandum, “DOD Standard Chart of
            Accounts in Standard Financial Information Structure (SFIS),” August 13,
            2007

Use of Computer-Processed Data
To perform this audit, we used FY 2009 and FY 2010 LMP trial balance data and the
Accounting Report 1307 data files compiled by DFAS Indianapolis. We did not
independently verify the data for accuracy, but took steps to identify potential data
problems. Specifically, we discussed data integrity with financial management and
system design experts, agency officials, and officials at organizations involved with
developing LMP. We validated the accuracy of the DOD Standard Chart of Accounts
and SFIS requirements we obtained from the DOD Web site with BTA personnel; and
reviewed trial balance data and Accounting Report 1307 data files to analyze for
anomalies, such as abnormal account balances and missing accounts. We used this
information to determine whether the Army had implemented USSGL and SFIS
requirements in LMP. We also reviewed the manual journal vouchers input monthly by
DFAS Indianapolis to compile the Accounting Report 1307 data file to identify the types
of vouchers prepared and their purpose. We used this information to identify which
USSGL accounts the vouchers affected and determine whether LMP had the capability to
populate these accounts. We believe the computer-processed data we used were adequate
to support the findings and conclusions in this report.




                                          28 

Appendix B. Prior Coverage
During the last 5 years, the GAO, Department of Defense Inspector General (DOD IG),
USAAA have issued 10 reports discussing the deployment of LMP and its compliance
with the USSGL and FFMIA and its ability to record financial transactions according to
accounting standards. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil.

GAO
GAO Report No. 10-461, “Actions Needed to Improve Implementation of the Army
Logistics Modernization Program,” April 30, 2010

GAO Report No. 09-852R, “Defense Logistics: Observations on Army’s Implementation
of the Logistics Modernization Program,” July 8, 2009

GAO Report No. 07-860, “DOD Business Transformation: Lack of an Integrated
Strategy Puts the Army's Asset Visibility System Investments at Risk,” July 27, 2007

DOD IG
DOD IG Report No. D-2009-87, “Controls Over Contract Obligation Data
in the Logistics Modernization Program,” July 15, 2009

DOD IG Report No. D-2007-065, “Controls Over the Prevalidation of DOD Commercial
Payments,” March 2, 2007

Army
USAAA Report No. A-2007-0205-FFM, “Logistics Modernization Program System
Federal Financial Management Improvement Act of 1996 Compliance–First Deployment
Functionality,” September 7, 2007

USAAA Report No. A-2007-0163-FFM, “FY 03–FY 05 Obligations Recorded in the
Logistics Modernization Program,” July 27, 2007

USAAA Report No. A-2007-0154-ALR, “Follow up Audit of Aged Accounts–U.S.
Army Communications-Electronics Life Cycle Management Command,” July 2, 2007

USAAA Report No. A-2006-0234-FFM, “Attestation of Logistics Modernization
Program, Federal Financial Management Improvement Act of 1996–FY 06 Phase 1
Quality Assurance Environment Testing,” September 21, 2006

USAAA Report No. A-2006-0137-FFM, “Logistics Modernization Program System
Federal Financial Management Improvement Act Compliance–Revalidation,” June 20,
2006

                                           29 

Appendix C. Logistics Modernization
Program System Deployment Schedule and
Schedule of FFMIA Guidance Issued
Figure C-1 shows the planned LMP timeline as provided by the LMP PO.

                        Figure C-1. Deployment Timeline




AMCOM        Aviation and Missile Command
ASC          Army Sustainment Command
DIACAP       DOD Information Assurance Certification and Accreditation Process
JM&L         Joint Munitions and Lethality Life Cycle Management Command
SDS          Standard Depot System


                                        30 

Figure C-2 shows how the dates of issuance of FFMIA related guidance compares to key
events in the LMP deployment timeline.

Figure C-2. Issuance of FFMIA Related Guidance Compared to LMP Deployments




                                         31 

Appendix D. Regulatory and Policy
Guidance
OMB Circular No. A-127
OMB Circular No. A-127 implemented the FFMIA requirements and provided the
policies and standards for executive departments and agencies to follow concerning their
financial management systems. The circular establishes policies for each Federal agency
to establish an integrated financial management system that complies with specific
accounting, operational, and internal control standards. It also explains the FFMIA,
Section 803(a), financial management system requirements, defines how agencies are to
determine whether their systems are substantially compliant, and assigns responsibilities
for compliance.
The circular further states that USSGL compliant means that each time a system records
an approved transaction, it will generate postings to the correct GLACs according to
USSGL rules. The circular requires financial management systems used by Federal
agencies to substantially comply with the following three requirements of FFMIA
Section 803(a).
   1.	 Federal Financial Management System Requirements. Requirements exist in
       three specific areas.
           a.	 Computer security requirements are defined in the Federal Information
               Security Management Act of 2002 and OMB Circular No. A-130,
               “Management of Federal Information Resources,” November 28, 2000.
           b.	 OMB Circular No. A-123, “Management’s Responsibility for Internal
               Control,” December 21, 2004, including Appendix A, defines internal
               control requirements. These requirements ensure that resource use is
               consistent with laws, regulations, and policies; resources are safeguarded
               against waste, loss, and misuse; and reliable data are obtained, maintained,
               and disclosed in reports.
           c.	 FSIO’s “Core Financial System Requirements,” January 2006, and
               subsequent revisions outline the core financial system requirements.
               These requirements establish mandatory and value added system
               capabilities that core financial management systems need to be compliant.
   2.	 Federal Accounting Standards. Agency financial management systems must
       maintain accounting data to permit reporting as defined in Federal accounting
       standards issued by the Federal Accounting Standards Advisory Board and
       reporting requirements issued by the OMB Director and the Secretary of the
       Treasury. When a Federal accounting standard has not been issued to cover a
       particular situation, the system must maintain data in accordance with the
       applicable accounting standards used by the agency for preparing its financial
       statements.



                                            32 

   3.	 USSGL at the Transaction Level. Federal agencies must apply the USSGL
       requirements when recording financial events. Application of the USSGL at the
       transaction level means that each time a system records an approved transaction,
       it will generate appropriate postings in the correct GLACs according to the rules
       defined in the USSGL guidance.
OMB Circular No. A-127 directs that all systems must comply with computer security
and internal control requirements. However, only core financial management systems
must also comply with FSIO core financial system requirements, accounting standards,
and application of the USSGL at the transaction level. DOD mixed systems do not need
to comply with the core financial system requirements unless the systems perform a core
financial management system function. Additionally, mixed systems only have to adhere
to the specific accounting standards applicable to that system. Finally, mixed systems do
not have to record transactions using GLACs, but data received from the mixed system
by the core financial management system must post in the core financial management
system’s general ledger using proper USSGL accounts and accounting standards.

The circular also states that a financial management system substantially complies with
the FFMIA when it routinely provides reliable and timely financial information for
managing day-to-day operations. Substantial compliance also requires that the system
produces reliable financial statements, maintains effective internal control, and complies
with legal and regulatory requirements. Agencies subject to the Chief Financial Officer
Act are required to assess annually whether their systems achieved substantial
compliance with the FFMIA risk model provided in the January 2009 revision of the
circular by applying the risk model indicators identified in each of three risk categories
(nominal, moderate, and significant) that determine the level of risk for an agency. Risk
model indicators include:

       •	 weaknesses in internal control over financial reporting,

       •	 audit opinion issued,

       •	 auditor-reported material weaknesses,

       •	 persistent auditor-reported significant deficiencies related to financial
          management systems,

       •	 significant manual year-end adjustments (in number and value),

       •	 findings of nonconformance with financial system requirements reported
          under Section 4 of the Federal Managers Financial Integrity Act, or

       •	 significant deficiencies affecting financial management systems identified
          using the criteria defined in the Federal Information Security Management
          Act.



                                            33 

The risk model indicators represent the major criteria for determining FFMIA
compliance. Agencies must make their assessment using both auditor reports and their
own evaluations. The FY 2009 United States Army Annual Financial Statement, Note 1,
“Significant Accounting Policies,” states that LMP is substantially compliant with
FFMIA as determined by USAAA.

U.S. Government Standard General Ledger Supplement
The Supplement provides the USSGL rules. The Supplement establishes a uniform chart
of accounts and technical guidance for standardizing Federal agency accounting. The
Department of Treasury updates the Supplement at least annually. The following
describes the five Supplement sections:
     •	 Section I, Chart of Accounts, provides the USSGL basic structure, including the
        proprietary, budgetary, and memorandum GLACs comprised of 4-digit account
        numbers, account titles, and normal balances (debit or credit).
     •	 Section II, Accounts and Definitions, defines the purpose and use of each
        proprietary, budgetary, and memorandum GLAC.
     •	 Section III, Account Transactions, lists a unique 4-position alphanumeric code
        assigned to each Federal accounting event. The code includes a detailed event
        description and provides the standard posting logic to record each event to the
        appropriate proprietary, budgetary, and memorandum GLACs.
     •	 Section IV, USSGL Account Attributes, lists the USSGL attribute fields that
        provide additional modifiers describing how to use each GLAC to meet specific
        reporting requirements. The section lists the attribute field and valid domain
        values reportable in each attribute. It also identifies the GLACs and attribute
        data that Federal agencies must report to the Department of Treasury Federal
        Agencies’ Centralized Trial-Balance System. 1
     •	 Section V, USSGL Crosswalks to Standard External Reports, links GLACs to
        external financial reports required by OMB guidance, the Federal Accounting
        Standards Advisory Board, and the Department of the Treasury. The section also
        identifies additional attributes not in Section IV needed to comply with OMB
        Circular No. A-136, “Financial Reporting Requirements,” June 10, 2009.
To comply with the OMB policy for recording transactions at the transaction level, the
Supplement requires that Federal agencies post transactions using the 4-digit GLAC and
applicable attribute domain values. The Supplement permits Federal agencies to expand
the GLAC numbering system to more than four digits to accommodate agency-specific
requirements. However, the more detailed agency account numbers must summarize to
one of the 4-digit GLACs and any related attributes.


1
   Federal Agencies’ Centralized Trial-Balance System I is a reporting system that collects Federal agency
preclosing adjusted trial balances at the fund group level using the GLACs. The information is used to
prepare the Financial Report of the U.S. Government. Federal Agencies’ Centralized Trial-Balance System
II allows agencies to submit one set of accounting data for budgetary reporting. These reporting systems
require Federal agencies to use specific attribute domain values.

                                                   34 

DOD Financial Management Regulation
Three chapters in DOD Regulation 7000.14-R, “DOD Financial Management
Regulation,” volume 1, “General Financial Management Information, Systems and
Requirements,” apply to this audit.
         •	 Chapter 3, “Federal Financial Management Improvement Act of 1996
            Compliance, Evaluation, and Reporting,” provides DOD’s FFMIA
            implementation policy.
         •	 Chapter 4, “Standard Financial Information Structure (SFIS),” provides SFIS
            implementation policy.
         •	 Chapter 7, “United States Standard General Ledger,” provides USSGL
            compliance requirements.

Standard Financial Information Structure Policy Memoranda
DOD developed the SFIS as a comprehensive common business language to support its
information and data requirements for budgeting, financial accounting, cost and
performance management, and external reporting. The BTA led the SFIS development
effort to standardize DOD financial reporting by developing the standard data element
definitions and business process rules needed for DOD financial management systems to
incorporate a DOD-wide financial information structure that is USSGL compliant.

The USD(C)/CFO issued memorandum, “Standard Financial Information Structure
(SFIS) Implementation Policy,” August 4, 2005, establishing the enterprise-wide
standard. The policy required systems containing financial information to have the
ability to capture and transmit SFIS data or demonstrate an internal crosswalking
capability to the SFIS format. DOD policy stated that for target systems that began
limited deployment, the Army must successfully test the system’s ability to comply with
the SFIS requirements and present compliance information to the designated IRB to
receive approval for full operational capability. 2

The Acting Deputy Chief Financial Officer issued memorandum, “DOD Standard Chart
of Accounts in Standard Financial Information Structure (SFIS),” on August 13, 2007.
It requires the DOD Standard Chart of Accounts in all DOD target systems.




2
  On October 28, 2009, Congress enacted Public Law 111-84, which replaced the terms “full operational
capability” with “full deployment” and “initial operational capability” with “full deployment decision” for
information systems.

                                                    35 

Appendix E. Standard Financial Information
Structure
Section 2222(d), title 10, United States Code (2005) requires DOD to develop an
information infrastructure that integrates budget, accounting, program information,
systems, and performance. OMB Circular A-127 requires agency financial management
systems to comply with the USSGL. The FSIO Core Financial System Requirements
direct the standardization of accounting classification elements and definitions to ensure
uniform and efficient DOD accounting treatment, classification, and reporting. The DOD
Business Transformation Agency established the SFIS to address these requirements.
DOD memorandum, “Standard Financial Information Structure (SFIS) Implementation
Policy,” August 4, 2005, requires that the certification process for target accounting
systems include an assessment of the system’s ability to receive SFIS data with source
transactions and post the correct proprietary and budgetary GLACs in accordance with
the SFIS Transaction Library. It also states that the SFIS Transaction Library must be
part of the target system’s testing documentation and successfully pass testing before
Milestone C (production and deployment of the system). However, for those target
accounting systems already in limited deployment when DOD issued this policy in 2005,
the IRB would not approve the system for full operational capability until the system had
successfully completed its SFIS compliance testing. The IRB oversees the investment
review process for business capabilities, guided by the Business Enterprise Architecture
and Enterprise Transition Plan.

The following discussion describes how implementing the DOD Standard Chart of
Accounts and SFIS Transaction Library will assist the Army in achieving USSGL
compliance at the transaction level in LMP.

SFIS Transaction Library
The SFIS Transaction Library identifies the standard DOD business transactions that
must be included in system functionality and crosswalks the DOD transactions to
corresponding USSGL accounting events. Sections III, IV, and V of the Supplement
identify the specific GLACs and attributes that target accounting systems must populate
when recording these transactions.

Compliance with USSGL Transaction Codes
Section III of the Supplement contains 570 transaction codes required for use by Federal
entities. The USSGL groups the transaction codes as follows.
       •	 A 100-799 - Funding Sources (165 transaction codes)
       •	 B 100-699 - Disbursements and Payables (64 transaction codes)
       •	 C 100-799 - Collections and Receivables (112 transaction codes)
       •	 D 100-799 - Adjustments, Write offs, and Reclassifications (100 transaction
          codes)



                                           36 

       •	 E 100-799 - Accruals and Non-Budgetary Transfers Other Than
          Disbursements and Collections (39 transaction codes)
       •	 F 100-499 – Year-end Entries (76 transaction codes)
       •	 G 100-299 - Memorandum Entries (8 transaction codes)
       •	 H 100-399 - Other Specialized Transaction Entries (6 transaction codes)
The SFIS Transaction Library converts the 570 USSGL transaction codes into
4,619 USSGL related transaction codes plus 11 DOD-specific transaction codes (DOD
transaction codes) for use in transacting DOD business events. The DOD transaction
codes identify the GLACs a target system must populate when executing that specific
transaction.

The following information shows the relationship between the USSGL and the SFIS
Transaction Library and DOD Standard Chart of Accounts. It demonstrates how
implementing the SFIS Transaction Library and DOD Standard Chart of Accounts
achieves USSGL compliance at the transaction level. Figure E-1 identifies the
proprietary and budgetary accounting entries in the USSGL associated with USSGL
transaction code B402, designed for Federal entities to record the delivery of goods or
services and to accrue a liability.

              Figure E-1. Illustration of USSGL Transaction Code B402

Budgetary Entry
Debit 4801 Undelivered Orders - Obligations, Unpaid
        Credit 4901 Delivered Orders - Obligations, Unpaid
Proprietary Entries
Debit 1511 Operating Materials and Supplies Held for Use
Debit 1512 Operating Materials and Supplies Held in Reserve for Future Use
Debit 1521 Inventory Purchased for Resale
Debit 1522 Inventory Held in Reserve for Future Sale
Debit 1525 Inventory - Raw Materials
Debit 1527 Inventory - Finished Goods
Debit 1561 Commodities Held Under Price Support and Stabilization Support Programs
Debit 1571 Stockpile Materials Held in Reserve
Debit 1572 Stockpile Materials Held for Sale
Debit 1591 Other Related Property
Debit 1711 Land and Land Rights
Debit 1712 Improvements to Land
Debit 1720 Construction-in-Progress
Debit 1730 Buildings, Improvements, and Renovations
Debit 1740 Other Structures and Facilities
Debit 1750 Equipment
Debit 1820 Leasehold Improvements




                                            37 

       Figure E-1. Illustration of USSGL Transaction Code B402 (continued)

Debit 1830 Internal-Use Software
Debit 1832 Internal-Use Software in Development
Debit 1840 Other Natural Resources
Debit 1890 Other General Property, Plant, and Equipment
Debit 1990 Other Assets
Debit 6100 Operating Expenses/Program Costs
Debit 6900 Nonproduction Costs
        Credit 2110 Accounts Payable
        Credit 2130 Contract Holdbacks
        Credit 2190 Other Liabilities with Related Budgetary Obligations
        Credit 2191 Employee Health Care Liability Incurred but Not Reported
        Credit 2210 Accrued Funded Payroll and Leave
        Credit 2211 Withholdings Payable
        Credit 2213 Employer Contributions and Payroll Taxes Payable

Using USSGL transaction code B402 to record the passing of title upon receipt of the
goods also requires the posting of transaction codes G120, G122, and G124 to track
purchases. These G-series memorandum entries identify specific information related to
the accounting events. Figure E-2 shows the memorandum entries to record when
tracking current year purchases.

   Figure E-2. Illustration of USSGL Transaction Codes G120, G122, and G124

G120. To record activity for current-year purchases of property, plant, and
equipment.

Memorandum Entry
Debit 8802 Purchases of Property, Plant, and Equipment
       Credit 8801 Offset for Purchases of Assets

G122. To record activity for current-year purchases of inventory and related
property.

Memorandum Entry
Debit 8803 Purchases of Inventory and Related Property
       Credit 8801 Offset for Purchases of Assets

G124. To record activity for current-year purchases of other assets not recorded as
Property, Plant, and Equipment or Inventory and Related Property.

Memorandum Entry
Debit 8804 Purchases of Assets - Other
       Credit 8801 Offset for Purchases of Assets




                                             38 

The SFIS Transaction Library breaks down USSGL transaction code B402 and its
corresponding G-series memorandum entries into 57 DOD-specific business events.
By breaking down each of the USSGL transaction codes, the SFIS Transaction Library
provides the target systems with a standard method for recording the required GLACs
needed to populate the general ledger. Table E-1 shows 3 of the 57 DOD business
events, described in terms of DOD transaction codes and GLACs, that result from
USSGL transaction code B402.

       Table E-1. SFIS Transaction Library for USSGL Transaction Code B402
  Transaction                          Budgetary       Proprietary      Memorandum
    Codes              DOD              Accounts         Accounts          Accounts
USSGL    DOD        Description      Debit   Credit   Debit   Credit    Debit Credit
B402       B402­    To record        4801    4901     1521     2110     8803     8801
           003      goods or
                    services
                    delivered and
                    to accrue an
                    accounts
                    payable for
                    inventory
                    held for sale.
           B402­    To record        4801    4901     1730     2110     8802     8801
           013      goods or
                    services
                    delivered and
                    to accrue an
                    accounts
                    payable for
                    buildings.
           B402­    To record        4801    4901     6900     2191     N/A      N/A
           058      delivery of
                    goods or
                    services and
                    to accrue an
                    employee
                    health care
                    liability
                    incurred but
                    not reported
                    for nonpro­
                    duction costs.
N/A = not applicable

Compliance with USSGL Attributes Values
SFIS defines 71 data elements needed to support DOD financial reporting. The SFIS
Transaction Library identifies which SFIS data elements a DOD transaction code must
populate. The SFIS Matrix 7.0 identifies the data elements used for USSGL attribute
reporting, the valid values for each data element, and the associated business rules. The
SFIS data elements fall in these six information categories:


                                             39 

       •	 appropriation account

       •	 budget program

       •	 organizational

       •	 transactional

       •	 trading partner

       •	 cost accounting
To demonstrate how the SFIS Transaction Library assists the DOD Components in
complying with the USSGL, we illustrate below how the SFIS Transaction Library
identifies the appropriate reporting of trading partner information. When identifying
trading partners, SFIS requires that systems populate the following three data elements.
       •	 Federal/Non-Federal Attribute. This indicator designates the type of entity
          involved in the transactions with the reporting entity. An “F” indicator
          denotes another Federal entity and an “N” denotes a non-Federal entity, such
          as a private party or local/state/tribal/foreign government.
       •	 Trading Partner Attribute. This indicator represents the Department Regular
          Code of the other Federal entity involved in transactions with the reporting
          entity. The indicator is used in conjunction with the Federal/Non-Federal
          attribute of “F.”
       •	 Business Partner Number Attribute. This attribute is a unique, 9-character
          alphanumeric identifier primarily used to identify buying or selling entities
          processing intragovernmental transactions for use in making
          intragovernmental eliminations. The Business Partner Number from the
          Business Partner Network must be used in conjunction with the Department
          Regular Code, Main Account Code, and Sub-Account Code for
          intragovernmental eliminations. Non-Federal governmental and civilian
          agencies use Data Universal Numbering System numbers. These entities are
          non-Federal entities and should be used in conjunction with the Federal/Non-
          Federal attribute of “N.” DOD uses an equivalent Business Partner Number,
          which consists of the letters “DOD” and the 6-character DOD Activity
          Address Code.




                                            40 

Table E-2 shows how the three DOD transaction codes associated with USSGL
transaction code B402 should populate these three SFIS trading partner data elements.

                            Table E-2. Trading Partner Information
   USSGL                     DOD           Federal/         Trading                                                            Business
 Transaction              Transaction    Non-Federal        Partner                                                            Partner
    Code                     Code         Indicator        Indicator                                                           Number
B402                     B402-003       M                M                                                           M
                         B402-013       M                M                                                           M
                         B402-058       M                M                                                           M
M = mandatory

Target systems can capture several of the other USSGL-required attribute values by
correctly populating each transaction using one of the SFIS data elements. Table E-3
identifies whether USSGL transaction code B402 should populate these attribute values.

              Table E-3. Requirement to Populate Selective SFIS Data Elements




                                                                                                             Covered/Uncover
                                                                                          Entity Indicator
                                                         Exchange/Non-



                                                                         Custodial/Non-
                              Debit/Credit




                                                                                                               ed Indicator
Transaction



               Transaction




                                                                                           Entity/Non-




                                                                                                                                   Noncurrent
                                             Begin/End



                                                           Exchange



                                                                           Custodial
                                             Indicator



                                                           Indicator



                                                                           Indicator




                                                                                                                                    Current/
  USSGL

   Code



                  Code
                  DOD




B402           B402-003      N/A              N/A          N/A               M             M                                   M      N/A


               B402-013      N/A             N/A           N/A               M             M                                   M      N/A



               B402-058      N/A             N/A           N/A             N/A            N/A                                  M      N/A



M = mandatory; N/A = not applicable

Compliance with USSGL Statement Crosswalking
To ensure compliance with Supplement, Section V, requirements, the SFIS Transaction
Library also identifies which financial statements a transaction code will effect. SFIS
requires that DOD target systems implement the DOD Standard Chart of Accounts. This
is necessary to capture transactional data in the specific USSGL/DOD account numbers
that DOD managers have created in DDRS. The target systems must report their trial

                                                            41 

balance data in this format to ensure transactions are recorded correctly in the financial
statements and other financial reports. The DOD Standard Chart of Accounts contains
9-position GLACs, which DDRS uses to populate the statements and other financial
reports. Using this standardized chart of accounts:
       •     reduces customization of target systems,
       •     eliminates translation and crosswalking of account values in the DDRS, and
       •     improves comparability of data across the target systems.
Table E-4 shows the financial statements populated by each of the three DOD transaction
codes used in the earlier example.


           Table E-4. Transaction Code B402 Impact on Financial Statements

  USSGL             DOD          Balance    Statement      Statement     Statement of
Transaction      Transaction      Sheet       of Net           of         Budgetary
   Code             Code                       Cost         Changes       Resources
                                                             in Net
                                                            Position
B402           B402-003            X                                         X
               B402-013            X                                         X
               B402-058            X            X                            X
Note: “X” identifies which financial statements use the data from each transaction code.




                                             42 

Appendix F. Additional U.S. Government
Standard General Ledger Accounts Needed
in the Logistics Modernization Program
System
With assistance from USD(C) personnel, we determined that Defense Working Capital
Fund accounting systems should have used a minimum of 174 USSGL accounts to record
business operations correctly. As of August 19, 2009, the LMP chart of accounts did not
include the following 42 USSGL accounts. *

           Account                                        Account Title
           Number
        1090                   Fund Balance With Treasury Under a Continuing Resolution
        1110                   Undeposited Collections
        1190                   Other Cash
        1349                   Allowance for Loss on Interest Receivable
        1369                   Allowance for Loss on Penalties, Fines, and Administrative
                               Fees Receivable
        1591                   Other Related Property
        1599                   Other Related Property – Allowance
        2120                   Disbursements in Transit
        2190                   Other Liabilities With Related Budgetary Obligations
        2211                   Withholdings Payable
        2400                   Liability for Nonfiduciary Deposit Funds, Clearing Accounts,
                               and Undeposited Collections
        2590                   Other Debt
        2650                   Actuarial FECA Liability
        2940                   Capital Lease Liability
        2960                   Accounts Payable From Canceled Appropriations
        2985                   Liability for Non-Entity Assets Not Reported on the
                               Statement of Custodial Activity
        2995                   Estimated Cleanup Cost Liability
        4034                   Anticipated Adjustments to Contract Authority



∗
 We based this list on the FY 2009 reporting requirements contained in the Supplement. For FY 2010,
some of these accounts may change. Therefore, DOD financial managers should assess the current version
of Supplement No. S2 Treasury Financial Manual to determine which GLACs to include in the LMP chart
of accounts.

                                                 43
   Account                          Account Title
   Number
4119         Other Appropriations Realized
4130         Appropriation To Liquidate Contract Authority Withdrawn
4132         Substitution of Contract Authority
4133         Decreases to Indefinite Contract Authority
4134         Contract Authority Withdrawn
4135         Contract Authority Liquidated
4137         Transfers of Contract Authority
4138         Appropriation To Liquidate Contract Authority
4190         Transfers - Prior-Year Balances
4392         Permanent Reduction - New Budget Authority
5209         Contra Revenue for Services Provided
5319         Contra Revenue for Interest Revenue - Other
5329         Contra Revenue for Penalties, Fines, and Administration Fees
5600         Donated Revenue - Financial Resources
5609         Contra Revenue for Donations - Financial Resources
5619         Contra Donated Revenue - Nonfinancial Resources
5755         Nonexpenditure Financing Sources - Transfers-In
5765         Nonexpenditure Financing Sources - Transfers-Out
5780         Imputed Financing Sources
5909         Contra Revenue for Other Revenue
5993         Offset to Non-Entity Collections - Statement of Changes in
             Net Position
5994         Offset to Non-Entity Accrued Collections - Statement of
             Changes in Net Position
6190         Contra Bad Debt Expense - Incurred for Others
7600         Changes in Actuarial Liability




                            44 

Appendix G. Effects of Incorrectly
Implementing Attributes
LMP incorrectly implemented two required USSGL attributes (Federal/Non-Federal and
Trading Partner), which resulted in the system providing inaccurate data to financial
managers. The following explains how the Army attempted to implement the
Federal/Non-Federal and Trading Partner attributes.

Federal and Non-Federal Attribute
The Supplement, Section IV, identifies the valid attribute value required for each GLAC.
Some GLACs use either a Federal entity “F” or a non-Federal entity “N,” some use both
“F” and “N,” and some do not use this attribute at all. The LMP trial balance data we
reviewed indicated that the system incorrectly reports both an “F” and “N” attribute value
for almost every GLAC reported to DFAS, including those GLACs that should have only
reported either an “F’ or “N” value, but not both. This resulted in many of the LMP
account balances submitted to DFAS in the trial balance files having an abnormal
balance. We reviewed the May 2009 trial balance files submitted by the 16 AWCF
activities using LMP and found that these activities reported 476 individual lines on the
trial balance that contained abnormal account balances. The abnormal balances had an
absolute value of $96.1 billion. AMC and DFAS financial managers explained to us that
these abnormal balances resulted from not posting transactions with the correct
Federal/Non-Federal attribute value and, once DFAS consolidated the individual trial
balance lines that reported with an “F” and “N” for each GLAC, most of the abnormal
balances would net to a normal balance at the GLAC level. However, we determined that
this is a significant issue because no reconciliation is accomplished at the transaction
level.

To demonstrate the impact of this problem, we examined the December 2009 LMP trial
balance data reported for GLAC 2110.1000, “Accounts Payable - Federal.” The LMP
trial balances for this account reported an overall $1.6 billion abnormal balance when we
consolidated the amounts that 14 of the 16 LMP-supported AWCF activities reported.
However, DFAS Indianapolis eliminated the abnormal balance from the AWCF
financial statements by preparing two journal vouchers that increased the Accounts
Payable - Federal (GLAC 2110.9000F) account balance and decreased the Accounts
Payable - Nonfederal (GLAC 2110.9000N) account balance by $2.1 billion each.
DFAS Indianapolis personnel forced the dollar value of the AWCF’s Accounts Payable –
Federal (GLAC 2110) to match the dollar values of Accounts Receivable (GLAC 1310)
account balances reported by the AWCF’s Federal trading partners. Preparing journal
vouchers to mask abnormal balances continued the long-standing accounting practice
used to address inherent problems with the AWCF legacy systems that the Army should
have resolved with LMP. If LMP had accurately recorded its Federal/Non-Federal
attributes, AWCF activities could identify which transactions applied to each trading
partner and financial managers would be able to reconcile the data and correct any system
problems. However, financial managers were unable to reconcile the account balances
because LMP incorrectly reports the attribute values.

                                           45 

Trading Partner Attribute
LMP did not accurately capture the trading partner information for each transaction
recorded with the Federal attribute. LMP should have recorded the appropriate Treasury
Department Code or DOD Business Partner Number in the Trading Partner attribute field
to identify the correct Federal entity associated with each Federal transaction. Instead,
LMP records trading partner code “99” (the Treasury General Fund) for all Federal
transactions.

The Army recognized intragovernmental eliminations as an AWCF material weakness
because of the inability of its legacy accounting systems to capture trading partner
financial data at the transaction level. The legacy systems were unable to collect,
exchange, and reconcile buyer and seller intragovernmental transactions, resulting in the
need for adjustments that were not verifiable. However, the Army did not require loading
the Treasury Department Codes for each trading partner in LMP or for LMP to be
capable of identifying transactions associated with each individual Federal trading
partner. As a result, DFAS personnel continued to force the LMP trial balance data to
match the amounts reported by Federal trading partners. For example, in compiling the
FY 2009 AWCF Financial Statements, to force the AWCF financial statement values to
agree with corresponding records of intragovernmental trading partners, DFAS personnel
adjusted account balances by more than $12.9 billion.




                                           46 

Glossary
Attributes. Attributes are the characteristics of a USSGL account captured and used to
meet a specific reporting requirement. Examples are Apportionment Category, Authority
Type, Reimbursable Flag, and Trading Partner. Agency systems must record transactions
using USSGL 4-digit accounts plus attributes to capture information needed to meet
external reporting requirements.

Attribute Domain Values. Attribute domain values are the valid choices for an
attribute. For example, the valid domain values for the Reimbursable Flag attribute are
D (Direct) and R (Reimbursable).

Business Enterprise Architecture. The DOD Business Enterprise Architecture is the
enterprise architecture for the DOD Business Mission Area that defines DOD business
transformation priorities, the business capabilities required to support those priorities, and
the combinations of enterprise systems and initiatives that enable those capabilities. The
architecture includes activities, processes, data, information exchanges, business rules,
system functions, system data exchanges, terms, and links to laws, regulations, and
policies. Within the Financial Management domain, the requirements include
implementing the SFIS and DOD Standard Chart of Accounts.

Core Financial Management System. The core financial management system is the
information system that may perform all financial functions, including general ledger
management, funds management, payment management, receivable management, and
cost management. It is the system of record used for collecting, processing, maintaining,
transmitting, and reporting data regarding financial events. Other uses include supporting
financial planning, budgeting activities, and preparing financial statements. It can be
integrated through a common database or interfaced electronically to meet defined data
and processing requirements. Any data transfers to the core financial management
system must be traceable to the transaction source, posted to the core financial
management system in accordance with applicable guidance from the Federal Accounting
Standards Advisory Board, and in the data format of the core financial management
system.

Financial Event. A financial event is any activity having financial consequences to the
Federal Government related to the receipt of appropriations or other financial resources;
acquisition of goods or services; payments or collections; recognition of guarantees,
benefits provided, or other potential liabilities; distribution of grants; or other reportable
financial activities.

Financial Management System. A financial management system includes a core
financial management system and the financial portions of mixed systems necessary to
support financial management, such as procurement systems, loan systems, grants
systems, payroll systems, budget formulation systems, billing systems, and travel
systems. The system includes automated and manual processes, procedures, and


                                              47 

controls, along with data, hardware, software, and support personnel dedicated to the
operation and maintenance of system functions.

Full Deployment. Full deployment means, with respect to a major automated
information system program, the fielding of an increment of the program in accordance
with the terms of a full deployment decision. This term was formerly “full operational
capability.”

Full Deployment Decision. Full deployment decision means, with respect to a major
automated information system program, the final decision made by the Milestone
Decision Authority authorizing an increment of the program to deploy software for
operational use. This term was formerly “initial operational capability.”

Limit. A limit is a 4-digit suffix to the Treasury account number. The limit identifies a
subdivision of funds that restricts the amount and use of funds for a certain purpose, or
identifies sub-elements in the account for management purposes. For example, for
Defense Working Capital Fund account number 97X 4930.AC5F, the first position of the
limit is an “A” for AWCF, the second position identifies the business area (Supply
Management), and third and fourth positions identify the secondary business area
(Aviation and Missile Command).

Material Weakness. A material weakness is a significant deficiency, or a combination
of significant deficiencies, resulting in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected. In FY 2010,
the Army acknowledged 10 AWCF material weaknesses: Financial Management
Systems; Inventory; General Property, Plant, and Equipment; Intragovernmental
Eliminations; Other Accounting Entries; Abnormal Account Balances; Statement of Net
Cost; Accounts Payable; Reconciliation of Net Cost of Operations to Budget; and
Statement of Budgetary Resources.

Mixed System. A mixed system, also known as a feeder system, is an information
system that can support both financial and nonfinancial functions.




                                           48 

Joint Under Secretary of Defense (Comptroller) and Deputy
Chief Management Officer Comments




                          O FFICE OF THE SECRETARY            or   DEFENSE
                                    1000 DEFENSE PENTAGON
                                   WASHINGTON , DC 20301-1000

                                                                                           OCT       8 LOIO


       MEMORANDUM FOR ASSISTANT INSPECTOR G ENERA L OF THI:; I1 FPA RTMENT OF
                        DEFENSE (DEFENSE BUSINESS OPERATIONS)

       SUBJECT: Comments to Draft Audit Report, "'nsufficient Governance over Logistics
                Modernization Program System Development" (project No. D2009-DOOOFI-0139.000)

              This memorandum is in response to your request for comments on audit
       recommendations contained in the: subject draft audit report issued September 2, 2010. We
       generally concur with - and either have implemented or are in the process of imp lementing -
       most of the recommendations contained in the subject draft audit report. Our detailed responses
       to recommendations I (a)-(e) and 3(a)-(c) arc outlined in the attachment. However. we do not
       concur with I (b), and partially concur with recommendations 1(c) lmd 3(a), as explained in the
       attachment.

              We appreciate the opportunity to conunent on the audit recommendations.
            is the            of contact for our                She can be reached by telephone at




       ~~
       Deputy Chief Management Officer
                                                       Robert F_ I-laic
                                                       Under Secretary of Defense (Comptroller)

       Attachment:
       As stated




                                                                 49
DEPARTMENT OF DEFENSE (DoD) OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT REPORT DATED SEPTEMRF.R 2,2010, PROJECT NO. D2009-DOOOFI -OI39.000
"INSUFFICIENT GOVERNANCE OVER LOGISTICS MODERNIZATION PROGRAM
                     SYSTEM DEVELOPMENT"

     OFFICE m ' THE UNDER SECRETARY OF DEFENSE (COMPTROLLER)
  (OUSD(C))lCHlEF FINANCIAL OFFICER AND DEP(;TY CHIEF MANAGEMENT
                            OFFICE (DCMO)
            JOINT COMMENTS TO DoD OIG RECOMMEl"DA TlONS

RECOMMENDATION la: We recommend that the Under Secretary of Defense
(Comptroller)/ChiefFinancial Officer and the Deputy Chief Management Officer advise the
Deputy Secretary of Defense and the Deputy J)ircctor for Management at the Office of
Management and Budget (OMS) that the Logistics Modernization Program (LMP) system
should be selected as one of the DoD fmancial system projects with the gn:atc:st need for
improvement, consistent \\ith the Office of Management and Budget (OMB) Memoranda
M-10-26 and M-IO-31.

usmc.) and OeMO RESPONSE: Concur. LMP was designated to participate in the
Financial Systems Review in accordance with OMB Memorandum M·l 0-26.

RECOMMENDATION 1b: We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Deputy Chief Management Officer adv ise the
                             Click to add JPEG file
Deputy Secretary of nefense and the Deputy Director for Management at the Offiee of
Management and Budget that the Director of Cost Assessment and Progrnm Evaluation has been
requested to conduct an analysis of alternatives to determine whether tht! !,;o::;tlx:ncfi t of program
continuation and modification is greater or less than the cost benefit of program cancellation and
recourse to alternative solutions to obtain DOD compliance with thee.S . Government Standard
General Ledger requirements.

usmc) and DeMO RESPONSE : ~on -Concur. We do not believe it is an effective use of
resource::; tu r.;umlUl.:t an analysis of alternatives on a program that has been fielded to Army.
However, the Milestone Uecision Authority (DCMO) \,\111 issue an Acquisition Decision
Memorandum that establishes future program direction.

RECOMMENDATION lc : We recommend that thc Undcr Secretary of Defense
(Comptrollcr)/Chicf Finanl:iul Officer and the Deputy Chief Management Officer advi se the
Deputy Secretary of Defense and the Deputy Director for Management at the Office of
Management and Budget that they recommend that the DOD Efficiencies Task Force review the
Anny' s Enterprise Resource Planning strategy, includ ing any investment in the further
deployment of the Logistic Modernization Program system.

USDCq Ilnd DeMO RESPONSE : Partially Concur. The Army is currently working with
lJCMO and the Business Transfonnation Agency (BTA) to dc,,'elop an Enterprise Resource
Planning (ERP) strategy that includes LMP. ·Ibe existing governance, inc luding the Combined
Investment Review Board for Acquisition (ClRB -A), is evaluating the ERP strategy. The CIRB-


                                                                                         Attachment t
                                                                                           Page I   0[3




                                                              50
A is tasked with ensuring business systems investments are made in the best interest of the 000
enterprise. and would be the appropriate governance hody to refer matters to the 000
Efficiencies Task Force.

RECOMMENDATION 3a: We recommend that the Under Secretary of Defense
(Comptroller)/Chief FinanciaJ Otliccr and the Deputy ChicfManagement Officer work with the
Business Transformation Agency to delay the further deployment of the Logistics Modernization
Program system IIntil the recommended cost benefit analysis and DOD Efficiencies Task Force
review are completed. Regardless of the analysis results, at a minimum, require the Army to
demonstrate that fund ing i!:i availabh: and a plan is in place to correctly establish the Standard
Financial Information Structure requirements and DUD Standard Chart of Accounts at the
transaction level.

usncq and DCMO RESPONSE: Partially concur. We do not believe LMP system
implementation should be delayed until a cost benefit analysis or DoD EQi\.:it'nt..it=!:i Task force
review is complete. Specifically, on September 2, 2010, the Commanding General of the Army
Materiel Command (AMe) conducted a Go·Live Readiness review ofthe Army Sustainment
Command. TACOM Life Cycle Management Command, and Joint Munitions and Lethality
Command 's preparedness to implement the LMP solution. The Commander detennined these
sites are prepared to traru;ition to LMP in October 20 IO. The Secretary of the Army certified to
Congress AMC'!:i n::adiness for this deployment.

However, we do agree the Army should demonstrate funding is available, and ensure a plan is in
                             Click to add JPEG file
place to correctly establisb Standard Financial Information Structure (SFlS) requirements and a
DoD Standard Chart of Accounts (SCOA) at the transaction level. Since the draft report was
issued, the Anny has demonstrated funding is available, and ensured a plan is i.n place to
correctly establish SFIS and a DoD SCOA at the transaction level.

RECOMMENDA liO N 3b: We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Deputy Chief Management Officer work with the
Business Transformat ion Agency to update the "DOD Standard Chru1 of Accowlts in Stalldaru
Financiallnfonnation Structure (SF IS);' August 13, 2007, policy memorandum and DoD
Financial Management Regulation, Volume 1, to idcntify by funding types the core guidance for
general ledger accounis and Standard Financial Information Structure transaction codes.

USD(C) und DCMO RESPONSE : Concu r. On AUb>ust 23, 20 10, Deputy Chieff'inancial
Officer (DCFO) issut=J an updated DoD SCOA in its memorandum, " Depanment of Defense
(000) Standard Chart o f Accounts (SCOA), Transactions, and Posting Guidance in Standard
Financial lnfonnation Structure (SFIS) Update for Fiscal Year (FY) 2010 and FY 2011" In
addition, DoD is working diligently to complete a transRction library at the DoD SCOA level,
providing posting level guidance for both General Fund (GF) und Working Capital Fund (WCF)
programs. Over the past ten months, BTA facilitated t"'O working groups with active
participation o f both GF and WCF accounting and reporting subject matter experts, as well as
experts in ERP configuration. With full cooperation of all participants, completion of the entire
GF and WCF set of transaction level guidance is expected to he presented for D CFO signature in
March 201 1.

                                                                                       Attachment 1
                                                                                         Page 2 of3




                                                             51
RECOMMRNllATION 3c: We recommend that the Under Secretary of Defensc
(Comptrollcr)/Chief Financial Officcr and the Deputy ChicfManagcmcnt Otlicer work with the
13usiness Transformation Agency to Increa:;c the;: levd of validation required to assess
compliance with the Standard Financial Infonnation Structure, including the transaction library
and the U.S. Government Standard General Ledger requirements in Business Enterprise
Architecture.

USD(C) aod DCMO RESPONSE: Concur. ocr-o, DeMO and BTA are piloting all SFIS
and U.S. Government Standard General Ledger validation process. This is an expansion of the
current Financial Management (FM) Investment Review Board (IRB) process. For a given
program, a cross-functional task force val idates system configuration in accordance with SFlS
business rules and the 000 SCOA. If the pilot is expanded to all ERP systems under
development, then this validation will become part of the FM IRB process.




                           Click to add JPEG file




                                                                                   Attachment 1
                                                                                     Page 3 of 3




                                                         52
Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




                                      DEPARTMENT OF THE ARMY
                                       ASSISTANT SECRETARY OF THE ARMY
                                   FINANCIAL MANAGEMENT ANOCCMPmOLLER
                                                 10i ARMY PENTAGON
                                           WASHINGTON DC 20310-01/X1

                                                                              Sept ember 27 , 2010



        MEMORANDUM FOR Assistant Inspector General, Defense Business Operations. Office
        of the Inspector General. Department of Defense

        SUBJECT: Army Response to Drah Report Project No D2009-DOOOFt -0139.000,
        Insufficient Governance Over Logistics Modernization Program System Development


        1. Enclosed please find our response to recommendations contained in the subject draft
        report. The draft report recommends improvements in the governance of the Logistics
        Modernization Program (LMP) and development of a fully funded plan to establish
        compliance with the DoD Standard Rnanciallnformation Structure (SFIS). and to add 42
        accounts to the LMP U.S. Standard General (USSGL) structure. We generally agree with
        these recommendations.

        2. The office of the Assistant Secretary of the Army (Financial Management and
        Comptroller) (OASA(FM&C)) will continue to provide senior level govemance over
        financial matters related to the development and deployment of LMP and will assume
        operational control over LMP financial requirements. Since its inception, the
        OASA(FM&C) has participated in several LMP oversight bodies including the LMP
        Corporate Board, the Senior Executive LMP Oversight Committee and selVed as a
        process executive on the Senior Army Logistics Executive Council. During the LMP
        stabilization period, the OASA(FM&C) assumed a significant oversight role in ensuring atl
        applicable Federal Financial Management Improvement Act (FFMIA) criteria were met
        prior to further system deployments.

        3. A funded plan is in place to ensure SFIS compliance and the addition of the required
        accounts to the LMP USSGL structure. Development and deployment of LMP began prior
        to the Department's adoption of SFIS. Consequently, SFIS requirements were identified
        after significant financial transaction activity was processed in the system . The SFIS
        requirements will be added to the LMP baseline over a five·phased period that began in
        October 2009 and will be completed in March 2011. We will add the 42 accounts to the
        LMP USSGL structure and will map the accounts to the corresponding financial
        statements. Development of posting rules for the accounts based on the Treasury
        Financial Manual is in process and will ultimately determine the accounts required.

        4.          of contact for this action                   She can be reached by e·mail at




        Enclosure




                                                                     53
                             Enclosure : Official Comments
  Insufficient Governance Over LogistiCS Modernization Program Systems Development
                          Project No. D2009·DOOOFI-Ot 39.000
                                   September 2, 2010

Recommendation.

4. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) assume operational control over the development, approval , and
implementation of the Logistics Modernization program. or its successor. system financial
requi rements. Specifically,

   a.    Develop an internal control structure that assigns specific roles and
        responsibilities for all system stakeholders to ensure successful implementation
        and maintenance of the system, including responsibility for developing system
        processes and posting logic needed to accurately record all financial events,
        monitoring changes to the U.S. Government Standard General Ledger and DOD
        Standard Chart of Accounts and update the system as necessary.

        •   Concur. ASA-FM&C will continue to provide oversight of LMP
            developmental activities related to ganeralledger posting logic and
            controls. This oversight will be provided through the Army's Busi ness
            System Information Technology-Executive Steering Group. In addition,
            the DASA(FO) will monitor changes to the USSGL and DOD Standard
                           Click to add JPEG file
            Chart of Accounts to ensure that the LMP chart of accounts is current
            and updated as needed. An Army financial operations SOP related to
            updati ng the chart of accounts In the Army ERPs Is In drafland will be
            finalized by 31 December 2010.

   b. Assume direct authority over the implementation of any further financial
      management requirements.

        •   Concur. Based on recommendations in this report, the ASA-FM&C
            assumed oversight of LMP financial management requirements including
            adding the requi red accounts to the general ledger structure, completing
            SFIS development requirements, and Implementing additional system
            changes and transaction adjustments required to correct LMP abnormal
            balance conditions. The ASA{FMC) will draft and coordinate a
            memorandum of agreement/understanding reflecting this new role with
            all stakeholders by 31 October 2010. In addition, the ASA(FMC) is leading
            a team to develop and manage an Integrated plan addressing the
            financial recommendations in this report. The team will include member.
            from DFAS, AMC, PM LMP, and ASA- FMC (both budget and financial
            reporting). The integrated plan addressing systems changes, general
            ledger updates, SFIS Compliance and data cleansing will be completed
            by 15 October 2010.


   c. Examine and document all Army working Capital Fund business processes,
      identity the U. S. Government Standard General Ledger accounts needed to record
      events. document the incl usion or exclusion of all U.S. Government Standard
      General Ledger accounts in the Logistics Modemization Program system, or its
      successor, and establish any missing U.S. Government Standard General Ledger




                                                        54
   accounts in the Logistics Modernization Program or its successor, system's chart
   of accounts.

   •   Concur. We will add the 42 accounts identified by the draft report.
       Business rules identifying posting logic are under development and will
       be Included in the LMP baseline by April 2011 . Development of the
       business rules will inform the number of accounts required. We
       anticipate several accounts will not be required.

d. Report to the Business Transformation Agency and in its FY 2010 Annual
   Statement of Assurance the Logistics Modernization Program system is not
   substantially compliant with the Federal Financial Management Improvement Act
   of 1996 until the Army can:

(1) Implement and validate compliance with the U.S. Govemment Standard General
    Ledger Standard Financial Information Structure Transaction Library. This should
    include ensuring the transaction codes populate the correct attribute values in
    each transaction.

   •   Partially concur. The Army's fiacal year 2010 Statement of Assurance
       was completed and submitted prior to publication of this draft audit.
       LMP requirements were developed prior to the adopting of SFIS by the
       Department. For LMP, SFIS development Is S.phase process. The first
                      Click to add JPEG file
       two phases were implemented in October 2009 and May 2010 and
       extended the software to accommodate and populate all required SFIS
       attribute• . Phase 3, applying SFIS attribute. to all historical data, will be
       delivered in October 2010. Phases 4 and 5 will be delivered In March
       2011. These phases complete SFIS development and provide compliant
       interfaces with DDRS and DTS, and an electronic data warehouse for
       SFIS attributes.

{2} Implement the DOD Standard Chart of Accounts in the Logistics Modemization
    Program, or its successor, system.

   Concur. The 42 required accounts will be added to the standard chart of
   accounts. Development of the SOP a8 mentioned in the reply to
   Recommendation 4.a. above will ensure that the chart of accounts is
   correctly Implemented and remains current.




                                                   55
56

